<html>
<title> - [H.A.S.C. No. 116-63] ALARMING INCIDENTS OF WHITE SUPREMACY IN THE MILITARY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-63]

                         ALARMING INCIDENTS OF

                         WHITE SUPREMACY IN THE

                       MILITARY--HOW TO STOP IT?

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 11, 2020
                           
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          

                                     

                                     
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
42-962               WASHINGTON : 2021  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
                Craig Greene, Professional Staff Member
                 Glen Diehl, Professional Staff Member
                         Danielle Steitz, Clerk
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     3
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Beirich, Heidi L., Ph.D., Co-Founder and Chief Strategy Officer, 
  Global Project Against Hate and Extremism......................     4
Brooks, Lecia J., Chief Workplace Transformation Office, Southern 
  Poverty Law Center.............................................     8
Ethridge, Joe E., Jr., Chief, Criminal Intelligence Division, 
  U.S. Army Criminal Investigation Command.......................    28
Grabosky, Robert S., Deputy Director, Law Enforcement, Strategic 
  Programs and Requirements, U.S. Air Force Office of Special 
  Investigations.................................................    31
McMahon, Christopher J., Executive Assistant Director, National 
  Security Directorate, Naval Criminal Investigative Service.....    29
Miller, Stephanie, Director, Accessions Policy, Office of the 
  Under Secretary of Defense for Personnel and Readiness.........    24
Pitcavage, Mark, Ph.D., Senior Research Fellow, Center on 
  Extremism, Anti-Defamation League..............................     6
Reid, Garry, Director for Defense Intelligence 
  (Counterintelligence, Law Enforcement, and Security), Office of 
  the Under Secretary of Defense for Intelligence................    26

                                APPENDIX

Prepared Statements:

    Beirich, Heidi L.............................................    51
    Brooks, Lecia J..............................................   107
    Ethridge, Joe E., Jr.........................................   135
    Grabosky, Robert S...........................................   142
    McMahon, Christopher J.......................................   139
    Pitcavage, Mark..............................................    85
    Reid, Garry, joint with Stephanie Miller.....................   127
    Speier, Hon. Jackie..........................................    49

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Speier...................................................   149

Questions Submitted by Members Post Hearing:

    Ms. Speier...................................................   155
    
    
 ALARMING INCIDENTS OF WHITE SUPREMACY IN THE MILITARY--HOW TO STOP IT?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                        Washington, DC, Tuesday, February 11, 2020.
    The subcommittee met, pursuant to call, at 2:35 p.m., in 
room 2212, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. The Military Personnel Subcommittee will come 
to order. The hearing today is to discuss a very important 
issue and one that hopefully we will get some important answers 
to.
    This issue could not be more urgent. Three weeks ago, a New 
York Times article revealed that the FBI [Federal Bureau of 
Investigation] had arrested seven members of an organization 
called The Base, a dangerous White supremacist group.
    They aren't your parents' neo-Nazis. The Base is an 
accelerationist, paganistic, anarchic group whose name speaks 
to the admiration for al-Qaida and ISIS [Islamic State of Iraq 
and Syria]. They hate Jews and African Americans, but they 
don't like President Trump or the United States either. Their 
goal is to use terrorism to start a race war and collapse the 
United States.
    Triggering societal collapse may be a sick fantasy, but the 
reality is that domestic terror has claimed more lives than 
international terror since 9/11.
    Last week, FBI Director Wray told the Judiciary Committee 
that he had, quote, ``elevated racially motivated violent 
extremism to a national threat priority at the same band with 
homegrown violent extremism and ISIS,'' unquote.
    Our enemies, especially Russia, exploit these racial 
tensions to divide and weaken American society. The head of The 
Base lives in Russia. Russia likely supports White supremacist 
groups in the United States and Europe, and Russia targets our 
service members with disinformation.
    When our enemies take advantage of our vulnerabilities, our 
national security is threatened and dependent on a sufficient 
response.
    The threat also has specific implications for the Personnel 
Subcommittee.
    First, White supremacist terror groups and communities 
value military skills that would enable them to commit 
terrorism or fight a race war. They recruit vets to join and 
train their members, seek to infiltrate sympathizers into the 
military, and many members claim to have military experience. 
This doesn't make White supremacist terror groups unique. Al-
Qaida also recruited members of the Egyptian and Saudi 
militaries.
    Second, there are several warning signs that individuals 
with White nationalist and supremacist tendencies are, in fact, 
serving in our military. Recent high-profile examples include a 
Marine attending the 2017 Charlottesville rally, a Coast Guard 
officer arrested with a cache of weapons, and a West Point grad 
espousing hate on social media.
    Last week, a Military Times survey showed that the number 
of troops who have witnessed evidence of White supremacist and 
racial ideologies in the military increased from 22 to 36 
percent from 2018 to 2019.
    Like in previous decades, as supremacist activities, marked 
by events such as Charlottesville, have increased in recent 
years, it has likely increased in the military as well. And 
supremacists in the military put service members' safety, 
recruitment, and retention at risk.
    Third, I am concerned that the military doesn't take this 
threat seriously enough, have the tools it needs, or dedicates 
sufficient resources to the threat.
    Our accessions and vetting enterprise lumps White 
supremacist activity in with gang affiliation rather than treat 
it as a national security issue on par with foreign terror. 
That lack of urgency and focus trickles down to commanders and 
enlisted leaders, who don't appear to be sufficiently apprised 
of this threat or taught how to deal with it.
    Even if they are dealing with it, the military lacks 
statistics to prove it, in part because of the absence of a 
standalone UCMJ [Uniform Code of Military Justice] extremism 
article. This raises hard questions about whether military law 
enforcement needs additional authorities to combat this terror 
threat.
    Today we will be joined by two panels. The first will 
consist of experts from organizations that study, track, and 
educate on extremism. On the second, we will have DOD 
[Department of Defense] officials responsible for the 
accessions policy for the military, counterintelligence, law 
enforcement, and security, and the military criminal 
investigations agencies.
    I would like to focus on three main concerns today.
    First, what is the scope and magnitude of this threat, and 
what are its impacts?
    Second, what is being done to prevent these individuals 
from entering the military and then find, investigate, and 
prosecute them? Do military leaders take this issue seriously 
enough? Some of the testimony will suggest that many of them 
are just administratively discharged; nothing further is done 
about them. That is inconsistent with our need to make sure 
that the country is secure as well.
    Third, what additional tools might we need to give the 
military to combat this threat?
    Before I introduce the first panel, let me have Ranking 
Member Kelly have his opening remarks.
    [The prepared statement of Ms. Speier can be found in the 
Appendix on page 49.]

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Kelly. Thank you, Chairwoman Speier.
    I wish to welcome both of our panels to today's hearing.
    I have dealt with White supremacy on the front lines as a 
district attorney. From murders to rapes, to assault, to 
intimidation, to officer shootings, I have dealt with all those 
things in my district in Mississippi during my time as a 
prosecutor and a district attorney there.
    But I have also served in the military for 34 years. No 
group is more diverse or culturally integrated than our United 
States military--none, anywhere. We must keep it that way. It 
should be a cultural site where people can go to know what 
right looks like. And we have to keep it that way, which means 
this is an important hearing to make sure that we keep us at 
the basis that we are.
    I think extremist activities of any kind are unacceptable 
and cannot be tolerated in the military. They cut to the very 
core of what the military was founded on: good order and 
discipline. George Washington once wrote, ``Discipline is the 
soul of an army. It makes small numbers formidable, procures 
success to the weak and esteem to all.''
    The thought of extremist activities like White supremacy 
pervading the military is in direct contrast to the foundation 
of what the military stands for. As a former brigade commander 
and a battalion commander in combat, I can tell you from 
experience that soldiers must and do trust each other with 
their lives, regardless of their backgrounds or the colors of 
their skin. Service members are judged based on their ability 
to perform their job and the content of their character, and 
any other distinctions have no place in the military or in 
society.
    I am interested in understanding the true magnitude of 
these issues from today's witnesses. As I was preparing for 
this hearing, I realized we don't have a lot of reliable data 
on this. Aside from a recent newspaper poll on racist behavior 
in the military, we have few solid statistics on extremist 
behavior in the military.
    The definitive data we do have comes from the Department of 
Defense, where there have been 21 criminal cases involving 
White supremacy over the last 5 years amongst all four services 
and components. DOD is now tracking investigations into White 
supremacy, as well as other extremist activities, and sharing 
this information with the FBI.
    This is a step in the right direction on the law 
enforcement side, but I think data is a huge key to unpacking 
the issue. We need to define the problem and get reliable data 
on how prevalent it is in the military.
    On panel one, I would like to understand the magnitude of 
extremist and White supremacy activities all across society and 
what data is being tracked outside of the military. I am also 
interested in your recommendations specifically as they pertain 
to training and data collection for the military.
    On panel two, I would like to hear about the Department's 
screening processes and the ongoing monitoring of extremist 
activities. My understanding is there may be a gap in the 
reporting of the noncriminal cases that have been handled 
administratively by commanders that resulted in an 
administrative discharge. I would like to understand DOD's way 
forward on this issue and whether we also need to have 
standardized training across the services.
    I want to thank our witnesses and our chairwoman for being 
here today. Thank you, and I yield back.
    Ms. Speier. Thank you, Ranking Member Kelly.
    Thank you, witnesses, for joining us today. You will have 5 
minutes to present your testimony.
    I would also like to ask unanimous consent that non-
committee members be allowed to participate and ask questions 
after all the committee members have had the opportunity to ask 
questions.
    Without objection?
    Mr. Kelly. Without objection.
    Ms. Speier. So ordered.
    Okay. Our first panel starts with Dr. Heidi Beirich, co-
founder and chief strategy officer of the Global Project 
Against Hate and Extremism; Dr. Mark Pitcavage, senior research 
fellow at the Center on Extremism at the Anti-Defamation 
League; and Ms. Lecia Brooks, chief workplace transformation 
officer at the Southern Poverty Law Center.
    We will take a short recess and switch out to our second 
panel at the end of the first panel.
    So would you like to begin?

  STATEMENT OF HEIDI L. BEIRICH, PH.D., CO-FOUNDER AND CHIEF 
  STRATEGY OFFICER, GLOBAL PROJECT AGAINST HATE AND EXTREMISM

    Dr. Beirich. Yes. I would like to thank the esteemed 
members of the subcommittee for inviting me to testify today. 
It is a great honor.
    My name is Heidi Beirich. I have a Ph.D. in political 
science from Purdue University, and I am the co-founder of the 
newly established Global Project Against Hate and Extremism.
    For the last two decades, I have researched extremist 
activity in the United States and monitored White supremacists 
in the military, often forwarding that information to military 
investigators. I also argued, as I will today, for more 
vigilant practices and stronger policies to root out extremists 
from the ranks.
    Nothing I say in my remarks today should be taken to impugn 
the honorable men and women who serve in the Armed Forces, 
whose efforts I applaud.
    Barring White supremacists from the military is of the 
utmost importance. As my written testimony documents, the 
problem of White supremacists in the ranks is a serious and 
growing one. Many of us know of former soldiers with extremist 
views who have gone on to commit serious acts of terrorism. 
Timothy McVeigh and Oklahoma City is the one that most people 
usually think of, but this isn't an old problem. Just in this 
past year, Active Duty troops have been found to be involved in 
White supremacist groups responsible for murders and domestic 
terrorism plots and, in some cases, international terrorism.
    And White supremacy and the terror associated with it is on 
the rise--in fact, bucking the trend of declining rates of 
terror globally. We have a growing White supremacist movement 
both in the United States and abroad. Some of these folks are 
training White supremacists in other countries on military 
tactics. This is a significant threat to our troops, to the 
American public, and folks in other countries.
    The armed services' own soldiers know that White supremacy 
is a problem. It has already been cited. The Military Times has 
done a poll 3 years in a row that shows between one in four and 
one in three soldiers are aware--have encountered White 
nationalism or racism in the Armed Forces.
    So here are just my top-level recommendations to deal with 
White supremacy in the Armed Forces.
    It is very clear that screening measures need 
strengthening. The military doesn't have a tattoo database, for 
example, that shows extremist tattoos. It doesn't have clear 
procedures to investigate social media accounts, which is where 
you find most extremism nowadays.
    It might be wise to consider how the online activities of 
Active Duty troops are monitored. The recent arrest of a Coast 
Guard lieutenant who had all this kind of horrible stuff online 
tells us what this could lead to if we are not paying 
attention.
    Military recruits do fill out questionnaires that ask 
whether they have been a member of an organization dedicated to 
terrorism, but this process relies on self-reporting, and it is 
unclear how much that self-reporting is verified.
    There is need for more rigorous enforcement procedures and 
data, as has already been mentioned by the ranking member. The 
regulations against racism and White supremacy are generally 
strong, but if they are not enforced, they are paper tigers. 
Current regulations have penalties that are largely left up to 
commanders often at the unit level.
    There appears to be no process to track people expelled for 
ties to White supremacist groups. There is little data in the 
public domain to know how serious this problem is. All of these 
are serious issues, as well as it being unclear how information 
on extremists in one branch are shared with other branches or 
the Guard or the FBI.
    There need to be mandatory reports every year about the 
levels of White supremacy in the military. There was a House 
amendment that intended to add questions about White 
nationalism to military climate surveys that was dropped out of 
the National Defense Authorization Act. I would suggest that 
this should be looked at again.
    The Pentagon's, you know, investigatory task forces in each 
branch should be looked at, how they look at extremist 
networks, what level of investigatory resources exist there. 
And then data should be generated so that we know how serious 
the problem is.
    There are also loopholes in the regulations for other kinds 
of extremists. One example are folks involved in the anti-
government militia movement. These are people who believe in 
war against the Federal Government and are increasingly anti-
immigrant and anti-Muslim. And some of these organizations have 
thousands of members and specifically try to recruit from the 
Armed Forces. So that is something I would suggest also needs 
to be looked at.
    The military needs to report hate crime statistics to the 
FBI. Frankly, all Federal agencies need to. But this is another 
piece of data that would be helpful for understanding these 
problems.
    And there also is evidence the existence of extremists in 
the ranks is now contributing to worldwide terrorism. Members 
of the most violent American neo-Nazi groups have recruited 
veterans from the wars in Iraq and Afghanistan as well as 
Active Duty service members, and that military expertise is now 
being shared with White supremacists in other countries. This 
is something else that merits examination.
    I also want to say that it is very important that everybody 
in leadership speak out against White supremacy in the ranks. 
This is a bipartisan issue. It has been for a long time. And it 
should really be a no-brainer that this has to be done by 
everybody from the Commander in Chief on down.
    So, in closing, I want to just say that I agree with former 
Joint Chiefs Chairman General Joseph Dunford, who said, ``There 
is no place for bigotry and racism in the U.S. military or the 
United States as a whole.'' I hope the policy suggestions I 
provided here and in writing can bring us closer to eradicating 
these ideas from the ranks of our incomparable Armed Forces.
    It has been an honor to speak here. Thank you.
    [The prepared statement of Dr. Beirich can be found in the 
Appendix on page 51.]
    Ms. Speier. Thank you, Dr. Beirich.
    Next is Dr. Pitcavage.

  STATEMENT OF MARK PITCAVAGE, PH.D., SENIOR RESEARCH FELLOW, 
          CENTER ON EXTREMISM, ANTI-DEFAMATION LEAGUE

    Dr. Pitcavage. Chairwoman Speier, Ranking Member Kelly, 
distinguished members of the subcommittee, good afternoon. I am 
Mark Pitcavage, a senior research fellow with ADL's [Anti-
Defamation League's] Center on Extremism. It is an honor to 
appear before you today to address the issue of White supremacy 
in the U.S. military.
    For decades, ADL has fought against hate, anti-Semitism, 
and extremism in all forms by exposing extremist groups and 
individuals who spread hate and incite violence. Today, ADL is 
the foremost nongovernmental authority on domestic terrorism, 
extremism, hate groups, and hate crimes.
    The issue of extremism in the military is one ADL's Center 
on Extremism has tracked for years. We alert the services about 
military members tied to extremism, provide assistance upon 
request to recruiters and investigators, and offer training on 
extremism and related subjects. For example, ADL provides 
annual training to the command staff of the Army Criminal 
Investigation Command and Provost Marshal General.
    In 2009, ADL wrote then-Secretary of Defense Robert M. 
Gates, urging him to take measures to deal with White supremacy 
in the Armed Forces. The problem has only grown in urgency 
since then.
    In my testimony, I would like to share important context 
about the nature of extremism in the Armed Forces.
    Our Active and Reserve Components are large enough, 
numbering over 2 million men and women, to reflect broader 
American society in key ways, including the presence of 
extremism. Each time the White supremacist movement has surged 
in the U.S., that surge has been mirrored by a similar increase 
within the Armed Forces. It happened during surges in the 
1980s, the 1990s, and in 2008 to 2011.
    Today, it is happening again, as the U.S. is experiencing a 
surge in White supremacy propelled by the rise of the alt-
right, which has brought many young, newly radicalized White 
males into the White supremacy movement. This is aggravated by 
the spread of hate online.
    With each surge, the military incurs not only an increase 
in extremists but also increases in crime and violence that 
accompany that. Extremists in the military have planned 
terrorist acts. They have engaged in murders and hate crimes 
and stolen weapons and military equipment. And they provided 
information to other extremists. The current surge of White 
supremacy is no exception.
    Less than 2 weeks ago, Coast Guard Lieutenant Christopher 
Hasson was sentenced in Federal court to 13 years in prison in 
connection with a plot to commit domestic terrorism. 
Prosecutors described Hasson as a man inspired by racist 
murderers, who intended to exact retribution on minorities and 
those he considered traitors. Had law enforcement not caught 
him, they noted, we would now be counting the bodies of the 
defendant's victims.
    Internet searches Hasson made included ``where do 
Congressmen and Senators live when they are in DC [District of 
Columbia],'' ``how to rid the U.S. of Jews,'' and ``most 
liberal Federal judges,'' among others. Hasson wrote, ``I can't 
strike just to wound. I must find a way to deliver a blow that 
cannot be shaken off.''
    Other extremists in the military in recent years have 
distributed information related to explosives and WMDs [weapons 
of mass destruction], assaulted people during White supremacist 
rallies, acquired bombs and explosive materials, and used a 
firearm to threaten members of a mosque. Even more have been 
exposed attending White supremacist events, joining extremist 
groups, distributing racist propaganda, and posting to White 
supremacist chat rooms and forums online.
    The presence of extremists in the Armed Forces is dangerous 
to service members, their families, and others, and harmful to 
the good order, discipline, morale, and effectiveness of our 
troops. It is a problem that the military cannot afford to 
ignore.
    ADL's experiences working with the services have caused us 
concern that policies and regulations are not always widely or 
uniformly implemented, nor are key personnel always trained in 
systematic fashion. We encourage you to work with the 
Department and the services to ensure uniformity and clarity of 
regulations, to provide proper training for those involved in 
recruitment, discipline, and military justice on how to respond 
to evidence of extremism.
    We offer our expertise and experience to help the services 
tackle this issue, including developing curricula or train-the-
trainer events. Most importantly, we encourage all DOD and 
military leaders, as well as you, to speak out against hate. 
Setting an example from the top is essential. We must protect 
the men and women who protect our Nation.
    Thank you.
    [The prepared statement of Dr. Pitcavage can be found in 
the Appendix on page 85.]
    Ms. Speier. Thank you, Doctor.
    Next is Ms. Brooks.

 STATEMENT OF LECIA J. BROOKS, CHIEF WORKPLACE TRANSFORMATION 
              OFFICE, SOUTHERN POVERTY LAW CENTER

    Ms. Brooks. Thank you. Chairwoman Speier, Ranking Member 
Kelly, committee members, thank you so much. My name is Lecia 
Brooks. I am the daughter of a veteran of the Korean War. I am 
the mother of a son who proudly served the U.S. Army for two 
tours. This issue is deeply personal to me.
    The White nationalist movement in the United States is 
surging and presents a serious danger to our country and its 
institutions, including the U.S. Armed Forces. Recent 
investigations have revealed dozens of veterans and Active Duty 
service members who are affiliated with White nationalist 
activity.
    This is far from a new problem. In fact, the Southern 
Poverty Law Center has been documenting White nationalists and 
White supremacist infiltration of the military and urging 
officials to take action since 1986. In that year, we wrote 
Defense Secretary Weinberger and exposed the fact that Active 
Duty Marines at Camp Lejeune were participating in paramilitary 
Ku Klux Klan activities and even stealing military weaponry for 
Klan use.
    In December 2019, as was mentioned, it was reported that 
the National Defense Authorization Act was altered in the U.S. 
Senate to remove the mention of White nationalists in the 
screening process for military enlistees.
    According to the 2019 poll that was referenced by the 
Military Times, 36 percent of Active Duty service members who 
were surveyed reported seeing signs of White nationalism or 
racist ideology in the U.S. Armed Forces. In the same survey, 
more than half of the service members of color reported 
experiencing incidents of racism or racist ideology.
    A number of plots by White nationalists have been thwarted. 
The arrest of Lieutenant Christopher Paul Hasson, a 49-year-old 
serving in the Coast Guard, provides a recent example. Hasson, 
who had also spent time in the Marine Corps and the Army 
National Guard, was recently sentenced to more than 13 years in 
prison. He explicitly identified as White nationalist and 
advocated for the establishment of a White ethnostate.
    SPLC [Southern Poverty Law Center] has identified dozens of 
former and active military personnel among the membership of 
some of the country's most dangerous White nationalist and 
White supremacist groups. Those groups include the Atomwaffen 
Division, a neo-Nazi group whose members have allegedly been 
responsible for five murders since 2017.
    Brandon Russell, who launched Atomwaffen in 2015, served in 
the Florida Army National Guard. After his roommate Devon 
Arthurs killed two other roommates, who were also members of 
Atomwaffen, police found explosive materials. A framed photo of 
Army veteran and Oklahoma City bomber Timothy McVeigh was found 
in Russell's bedroom. He also possessed fliers that read, 
``Don't prepare for exams, prepare for a race war.'' It appears 
Russell joined the National Guard in order to receive the kind 
of skills he would need to prepare for that potential race war.
    All together, investigators have found seven members of 
Atomwaffen who have served in the military. Because of their 
sophisticated weapons and explosives training, those members 
significantly increase the group's potential to carry out 
deadly attacks.
    Russell has since been sentenced to 5 years in prison on 
charges related to the explosive materials found in the 
apartment. From prison, he has attempted to send instructions 
for building explosives to another member of the neo-Nazi 
group.
    The recent arrest of two trained soldiers, one from the 
United States and one from Canada, who belong to a terroristic 
White nationalist group called The Base have heightened our 
fears that they are now forming paramilitary cells.
    In 2006, the SPLC released a report highlighting the 
continuing presence of White nationalists in the military and 
once again reached out to ask the Department of Defense to 
implement a zero-tolerance policy on White supremacy. And again 
in 2008 and 2009, we wrote letters to the DOD urging 
investigations.
    Today, the SPLC offers the following recommendations.
    One, adopt and rigorously enforce a zero-tolerance policy 
on White nationalists and supremacist activity across all 
branches of the military.
    Two, require an annual report from military leadership that 
includes an audit of all investigations and resolutions of 
White nationalist and White supremacist activity.
    Three, blunt the reach and impact of White nationalist and 
supremacist ideology by offering support services that work to 
deradicalize Active Duty service members and veterans exposed 
to hateful and violent messages.
    We urge this committee and this Congress to use its powers 
to purge from its ranks those who would mar the reputation and 
courageous work of our dedicated U.S. service members.
    Thank you.
    [The prepared statement of Ms. Brooks can be found in the 
Appendix on page 107.]
    Ms. Speier. Thank you, Ms. Brooks.
    Thank you for your testimony. It is jarring, to say the 
very least, and is a very important wake-up call for all of us.
    You have offered a number of recommendations. I would like 
to maybe use Lieutenant Hasson, to the extent that there is 
public information. Was there social media--maybe I should ask 
this of the next panel, actually.
    Let me ask you this. We have the dark web. So individuals 
can gravitate to the dark web to engage in their social media 
if they are so inclined. How would you recommend that the 
military do the kind of monitoring that is necessary?
    Doctor.
    Dr. Beirich. Well, honestly, oftentimes, to find social 
media accounts, you don't really have to go into super-secret 
areas to find them. It is material that tends to be oftentimes 
on everything from Facebook accounts, Twitter accounts, or in 
places like 4chan, which are searchable. That is not to say 
that there aren't areas of the web that are hidden and hard to 
get to to find this information, but people are shockingly open 
about their extremist views.
    And it is the kind of material that should be easy for 
investigators or people talking to potential recruits to 
verify, especially if they are self-reporting that they are not 
involved in terrorist organizations or extremist organizations. 
You can find a lot of this material without too much 
difficulty.
    And I would advise that that seems like the first screening 
mechanism that should be done. A workplace would do the same 
with employees, right? And this is the military. So you can 
find a lot. That doesn't mean it is all there, but there is a 
lot.
    Ms. Speier. All right.
    Anyone else?
    Doctor.
    Dr. Pitcavage. Thank you. I agree with what my colleague 
Dr. Beirich said. There is extremist material on the dark web, 
but the dark web is dark to extremists as well, and it is 
easier for them to find other extremists and other extremist 
material on the regular internet. And, unfortunately, there are 
many places and many platforms online, from large mainstream 
social media platforms and other tech platforms to more obscure 
ones, where they can do that.
    And a lot of this is actually accessible to people who want 
to investigate this or want to monitor this if they are 
educated on where to look and what to look for. And so this is 
not necessarily an insurmountable problem. This is something 
that can be tackled to at least a certain degree.
    Ms. Speier. You each identified Active Duty and former 
service members in the ranks of extremist organizations. Are 
you able to distinguish how many are Active Duty and how many 
are former?
    Ms. Brooks. I don't have that listing. I could get that for 
you, though, Chairwoman.
    Ms. Speier. That would be helpful. Thank you----
    Ms. Brooks. Okay.
    Ms. Speier [continuing]. Ms. Brooks.
    [The information referred to was not available at the time 
of printing.]
    Ms. Speier. Anyone else have any comments on that?
    Dr. Beirich. I was going to respond in the same way. I did 
provide some of that in the written testimony, but I could 
provide it for the record.
    [The information referred to can be found in the Appendix 
on page 149.]
    Ms. Speier. In your estimation, as you have sought to 
inform the military investigators of information that you have 
uncovered, how have they responded?
    Dr. Beirich. Well, for the years that I was working at the 
Southern Poverty Law Center, this was one of my main areas of 
work. And I would say that starting in some of the time period 
that Ms. Brooks pointed out, in 2006, 2008, there was a 
reluctance on the part of the military to take these issues 
seriously.
    I remember at one point myself and some of my colleagues 
brought dozens and dozens of forum pages of Active Duty service 
members from a website called New Saxon, a neo-Nazi website, 
and showed that these people were praising Hitler, using racial 
slurs, they were Active Duty, and something needed to be done. 
And the military at that time was not very responsive to our 
idea that prior regulations only required card-carrying members 
of hate groups to be removed from the military.
    But that changed in 2009. So the regulations were tightened 
up and strengthened.
    The question, I think, really, at this point, is things 
about loopholes, like militia members who are in the service; 
anything that sort of is more blatantly racist, as opposed to 
hardcore White supremacist, how it is treated; and how the 
regulations are enforced.
    That would be my suggestion--screening mechanisms, 
enforcement. And then there is just a lack of data--right?--for 
the public to know exactly what is happening.
    Ms. Speier. Thank you.
    Would any of you like to respond further?
    Ms. Brooks. To Dr. Beirich's list, I would add anonymous, 
kind of, reporting and the continuous reporting, not just in an 
investigatory manner but something that happens consistently, 
that there is some way to monitor it regularly.
    Ms. Speier. Do you think there should be a bystander 
responsibility to report?
    Ms. Brooks. I do. I mean, the ranking member mentioned that 
our military is our shining star, and we need to do everything 
that we can to ensure that it remains that way. I think that 
the oath that folks take when they join the military demands 
it. Yes.
    Ms. Speier. Thank you.
    Ranking Member Kelly.
    Mr. Kelly. You can only swear a true allegiance to one 
cause. You either are--the United States of America or whatever 
organization that is. And I think you are exactly right.
    Ms. Brooks. Uh-huh.
    Mr. Kelly. I have been the direct target of an 
assassination attempt by an extremist. Not of the same line, 
but I have been a direct target. A guy tried to shoot me from 
here to you, tried to shoot me in the chest for no reason other 
than he didn't like my political views, but he didn't know me.
    We have to stamp this out. One is too many. And it is easy 
to look at it as a small issue, unless you are the one who the 
small issue is over. And so every single person who violates 
the oath and allegiance to the United States of America and to 
the military of America should be rooted out, because they 
can't have an allegiance to both.
    So, that being said, I want to ask you, what can we do in 
the current military to either train or change cultural ideas 
or issues to identify people who are violating that oath and 
allegiance to our United States of America? What can we do to 
train that better or to change the culture better?
    Yes, sir.
    Dr. Pitcavage. Thank you.
    So one of the axioms of fighting extremism and terrorism 
is, if you see something, say something. So, first, we need to 
encourage people to say something when they see something.
    But the fact is we also have to give people educated eyes. 
We have to give them the training, the ability to be able to 
recognize signs, whether those signs are online, whether those 
signs are in the real world, manifestations that appear in the 
real world, of this sort of extremism.
    Military recruiters need this. Initial-entry trainers need 
this. Advanced trainers need this. Company-grade officers and 
noncommissioned officers need this training. EO [equal 
opportunity] folks need this training.
    So, if you establish a foundation where people are educated 
on what to look for, the signs, and then there are 
expectations--clear regulations as well as expectations on how 
to report, how to investigate, how to deal with problems that 
emerge, then you are allowing people to see things and say 
things and do things.
    Mr. Kelly. You know, I joined the military in the 1980s, so 
I have seen a significant culture change from the 1980s until 
today, 34 years, and it is gotten better every year. Now, that 
doesn't mean there haven't been blips where it has gotten worse 
and better, but I can tell you, we are a lot better today than 
we were in December of 1985, when I joined.
    But I think, what can we do--like, when someone makes 
sexist jokes, that can lead to sexual harassment, which can 
lead to sexual assault, because it creates a culture where that 
is okay. And the same thing with, when someone makes a racist 
joke or a racist comment, it can lead to racism, which leads to 
the extremists, where you take that out in violent acts and all 
those things.
    So my question is, how do we better screen potential 
applicants, and how do we identify those in the ranks to get 
them out before they become to the extremist level?
    Dr. Beirich. Well, I just wanted to add, the social media 
issue is important. Training, as Dr. Pitcavage said, is 
absolutely important, setting standards from the get-go when 
somebody comes into the military about what is expected and 
what is not.
    But I do think, in addition to everything that Dr. 
Pitcavage said, there is the issue of how big or how dedicated 
the investigatory mechanisms are in the military to look for 
exactly these problems, especially when they escalate.
    Training can be dealt with; with a sexist remark, a racist 
remark, you want to stop that immediately, you want to set 
standards. But to find hardcore extremists, it is going to be a 
little more difficult. They may try to hide what they are up 
to. You know, it is hard to know.
    And some of the press reports I have been reading about all 
of this in the last few weeks indicate that perhaps there 
aren't the investigatory mechanisms and sharing of information 
at the level of the criminal investigative services across the 
agencies that needs to be there. And I would suggest that be 
beefed up.
    Mr. Kelly. And, finally, I just have a few more seconds 
left, but I think it is incumbent--and I am talking not to you 
guys at the table today but all of DOD across and every leader, 
from the team level, at the E-5 level, to the four-stars in 
command of large organizations. We must not allow any of these 
things to take place. And when we see it wrong, we have to 
correct it on the spot, and we have to let people know we won't 
tolerate any type of racism, sexism, or anything throughout the 
military.
    And thank you guys for being here today and testifying on 
this very important matter.
    I yield back.
    Ms. Speier. Thank you.
    Ms. Haaland, you are recognized for 5 minutes.
    Ms. Haaland. Thank you, Madam Chair.
    And thank you all so much for being here this afternoon to 
talk on this important topic.
    I come from a district with a large Hispanic population 
that makes up 40 percent of my constituents. This diversity is 
what makes our communities rich. And I will continue to fight 
for all groups to have equal access to opportunities and the 
right to serve in an inclusive and dignified environment. Let 
me be clear: Hateful ideologies of any kind have no place in 
our military.
    Ms. Brooks, this past August, media outlets reported that a 
master sergeant in the Air Force was an active member of 
Identity Evropa, one of the most visible neo-Nazi and White 
supremacist organizations in Colorado.
    The Air Force released a statement saying, ``Racism, 
bigotry, hatred, and discrimination have no place in the Air 
Force,'' but Sergeant Reeves remained in the Air Force. Only 
recently, after facing intense pressure, did the Air Force 
decide to begin the process of removing him from the military, 
and that is a concern to me.
    Wouldn't you agree that this undermines diversity 
initiatives as well as morale and unit cohesion? And could you 
elaborate?
    Ms. Brooks. Thank you so much for the question. You are 
absolutely right; it goes against all of what the U.S. Armed 
Forces are about.
    And I would just say a bit about Identity Evropa. They are 
a very noxious group of White nationalists who spread the very 
disinformation that Chairwoman Speier was mentioning earlier. 
And it is important, as far as the education campaign and the 
things that we need to do to address these issues, is to 
challenge this misinformation or this disinformation.
    White nationalists advocate for a White ethnic state. They 
put forth conspiracy theories with respect to White genocide 
and the Great Replacement. It is nothing to be played with. If 
we allow these noxious beliefs to continue, as our diversity 
continues across the country, this is what we are dealing with.
    You spoke to the diversity in your area, in your district, 
and the U.S. is experiencing a great demographic shift. And 
that is not playing well with a lot of White folks, and so they 
are putting forward this false narrative that there is a White 
genocide afoot.
    So it is extremely important that we address this head-on, 
because it does undermine everything that the military is all 
about.
    Ms. Haaland. Thank you.
    And based on your expertise--I think I know the answer to 
this--would you say that the services should adopt a zero-
tolerance policy for personnel that are involved in these----
    Ms. Brooks. Yes, ma'am.
    Ms. Haaland [continuing]. Organizations?
    Ms. Brooks. The Southern Poverty Law Center's first 
recommendation is that we adopt and rigorously apply a zero-
tolerance policy.
    As you say, you can't on the one hand say that we don't 
stand for racism, you know, we won't stand for racism of any 
kind, and then allow members to remain in the Armed Forces.
    Ms. Haaland. Yeah. Thank you. Thank you.
    And, Madam Chair, I yield back.
    Ms. Speier. Thank you, Ms. Haaland.
    Mrs. Davis, you are recognized for 5 minutes.
    Mrs. Davis. Thank you, Madam Chair.
    Thank you all for being here.
    Ms. Brooks, I just wanted to turn to you first for a 
second. And I know that the Southern Poverty Law Center does a 
tremendous amount of tracking and research. And have you all 
been sharing--I guess, how long has the relationship with the 
military been going on? And do you see it having changed over 
the last few years?
    I think that, you know, the comment is sometimes made that, 
well, the military just didn't take it seriously enough on some 
issues. Talk to us a little bit more about that. How would you 
characterize it?
    Ms. Brooks. Thank you for the question.
    The military, the Department of Defense in particular, has 
been very receptive. As I mentioned in my oral testimony, and 
it is documented in the written testimony, it goes back to 
1986. And then-Secretary of Defense Weinberger was very 
receptive and made a strong statement against White 
supremacists in the military.
    And as Dr. Beirich mentioned, it sometimes shifts over 
time. We recall [Under] Secretary of Defense Chu, who thought 
that our report was alarmist. So it depends on, kind of, who is 
in office.
    But we won't give up sharing the information that we have, 
sharing the research, because it is just that important to us.
    Mrs. Davis. And is that an ongoing, like----
    Ms. Brooks. Oh, yes, it is an ongoing relationship. The 
Southern Poverty Law Center also has ongoing relationships with 
law enforcement. The research that we do with respect to 
monitoring hate and extremism, we do it so that we can share it 
with folks on the ground, with law enforcement on the ground, 
with our military leaders, with leadership of any kind. We want 
to put a stop to this----
    Mrs. Davis. Yeah.
    Ms. Brooks [continuing]. So we share it with people who can 
put a stop to this. That is why we are so grateful to the 
subcommittee for holding this hearing. And we implore you and 
the Congress to do something with the research that we provide, 
in addition to what Dr. Beirich provides.
    And I will just say that Dr. Beirich has driven the 
research for the Southern Poverty Law Center for the last 20 
years. So the fact that I am talking about her research now, 
and Dr. Pitcavage, you can trust it implicitly.
    Mrs. Davis. Yeah. Thank you.
    And I am not sure, Ms. Brooks, if you mentioned this or 
either one of you, just talking about blunting the ideology. 
And it was mentioned that there are support services to do 
that. What are we looking at?
    Ms. Brooks. I did mention that. There are currently no 
support services.
    Because the spread of White supremacy or White supremacist 
ideology is so pernicious and people are so susceptible to 
these messages, we want to not only, kind of--we want to 
support people through it, right? We want to offer a way for 
people to recover from the hateful messages and violent 
messages that they might receive and may believe. Oftentimes we 
are dealing with young recruits, who are just susceptible. So 
we don't want to just kind of throw people out; we want to find 
ways to deradicalize them.
    It takes a little bit of work to convince people of this 
ideology, and it will take a little bit of work to convince 
them that it is not true. So----
    Mrs. Davis. Yeah. I guess I am wondering about whether we 
have the capacity within the military, in terms of having 
trained personnel who can deal with this in an ongoing way.
    Ms. Brooks. I think the resources are there, and I think 
that there are resources within the Armed Forces to find the 
people that can help the military carry out some of these 
support services. I know that.
    Mrs. Davis. Uh-huh. Okay. Thank you.
    I also wanted to just ask you a little bit about, you know, 
what you see from our military leaders.
    There was an example of a young man, supposedly, who used 
graffiti, and it turned out it wasn't quite what people 
thought. But the Superintendent of the Academy used some very 
strong words to say, if you are going do this, you know, get 
out of our military.
    And I remember a number of years ago, around sexual 
assault, there happened to an Australian--I believe it was 
Australian--general, you know, who made similar comments. And, 
at that time, we felt that maybe our leaders aren't given, sort 
of, the go-ahead to make strong statements like that.
    Would you like to kind of assess that sense of whether you 
think that military leaders are able to say things that are 
pretty strong and tell people to get out of our military if 
this is the way you feel?
    Doctor.
    Dr. Pitcavage. I would be happy to address that. And I 
think the example that you brought up is an example of a leader 
who exhibited leadership and spoke out very forcefully on an 
issue that came up under his purview. And we have seen over the 
years with the military and issues related to this that leaders 
lead.
    One of the reasons why the integration of the Armed Forces 
that occurred after World War II occurred far more smoothly 
than a lot of people expected was because, from the top down, 
leaders led. They spoke out; they set expectations. In no 
uncertain terms, they let people know what was going to happen.
    Now, some officers didn't like that, and they left the 
military and joined White supremacist groups and spoke out 
against desegregation. But they didn't do it in the military.
    Mrs. Davis. Uh-huh.
    Dr. Pitcavage. And we have had examples of superlative 
leadership in this regard recently related to this issue as 
well, too, when chiefs of staff spoke out after 
Charlottesville, the White supremacist event there and the 
death of the young activist there, spoke out forcefully against 
hate, against White supremacy, against extremism.
    And those are voices we need to encourage, and those are 
the voices that we need more of. And our military leadership is 
certainly capable of being that voice.
    Mrs. Davis. Thank you.
    My time is up. Thank you.
    Ms. Speier. Ms. Luria, you are recognized for 5 minutes.
    Mrs. Luria. Thank you.
    And thank you to the panel for being here to discuss this 
important issue today.
    You mentioned in your testimony a recent Military Times 
poll that revealed that more than one-third of respondents and 
more than half of minority respondents said that they had 
personally witnessed examples of White nationalism or 
ideologically driven racism within the ranks within the recent 
months from the time that the poll was taken.
    We agree that the DOD policies regarding White supremacist 
and extremist activities must be clear, they must be 
transparent. And, you know, I have looked here at this DOD 
policy. It dates to 2009, with a revision from 2012. And, as we 
know, there is a rapidly evolving use of social media and 
different means for spreading information.
    Are there specific things due to the policy, you know, 
being almost a decade old that you think merit, you know, 
updating or revision by DOD or the services to make this policy 
more enforceable, more relevant to current technology or any of 
those other aspects?
    Yes, Dr. Pitcavage?
    And, Ms. Brooks, as well, I think you also referenced in 
your written testimony the same survey from Military Times.
    Dr. Pitcavage. I think you bring up a key issue. You know, 
extremism constantly evolves, and so the methods the military 
must take to deal with extremism evolve too. Our current 
regulations, you know--actually, parts of them date back to the 
1960s. And they were appended in the 1980s, appended again in 
1990s, appended again when you mentioned it. But I think there 
are some specific things that we may want to look at.
    So, for example, White supremacy today is less group-
dependent than it used to be. In part because of the internet, 
you can be very active in the White supremacist movement 
without necessarily belonging to a specific group. Yet, if you 
look at our regulations, a lot of them refer specifically to 
organized groups rather than a broader movement. That may be 
something that needs to be addressed.
    But we may also want to take a look at those regulations 
more comprehensively and holistically to see, like, from the 
top, from the start to the finish, maybe they need to be 
rewritten to deal with modern circumstances, rather than just 
modifying or appending, you know, once more.
    Ms. Brooks. Thank you for the question.
    I would add that, I would encourage military leaders to 
listen to their troops. This Military Times survey was about 
1,600 people, and they surveyed people in the military. They 
themselves said that they saw the whole scourge of White 
nationalism, White supremacy being a greater threat to the 
homeland than, you know, foreign terrorism or anti-immigration 
combined.
    And I would also point out that you referred to the 
incidents where service members of color experienced racist 
incidents. And I think it is important to point out that they 
saw swastikas on military bases, they saw individuals using the 
Nazi salute with one another, there were, you know, kind of, 
graffiti--things that we find that we wouldn't expect to find 
in the military.
    I completely agree with my colleague that certainly the 
regulations need to be updated, but the important thing is that 
we take a serious stand. As was said, after the desegregation 
of the Armed Forces, it was from the top to every single person 
in the military, saying, you know, on the same page--saying 
from the same page. And that needs to happen again when we are 
talking about White supremacy and White nationalism. There can 
be no equivocation.
    Mrs. Luria. Thank you.
    Dr. Beirich, did you have anything further to add on this 
topic with the remainder of my time?
    Dr. Beirich. Just one addition. I agree with what was said 
here about taking a look at these constantly appended 
regulations, but the fact of the matter is, if they are not 
applied, it is pointless.
    And this case in Colorado, where a person who is in Active 
Duty military service and is a member of Identity Evropa, would 
be banned based on the 1985 regulations that Weinberger put in 
place. So he was demoted a rank, not removed from military 
service.
    So, you know, if you don't follow through with the whole 
process, it is a little pointless. And so I would suggest that 
be looked at very seriously.
    Mrs. Luria. Thank you.
    I yield back.
    Ms. Speier. Thank you.
    Ms. Escobar, you are recognized for 5 minutes.
    Ms. Escobar. Thank you, Madam Chair. I am very grateful 
that we are having this discussion.
    And to our panelists, thank you very much for being here 
and for sharing this important information with us.
    To our second panel, I hope that everyone is listening with 
an open mind.
    I represent El Paso, Texas, which was targeted last summer, 
on August 3rd. We had a domestic terrorist who confessed to 
driving over 600 miles and 10 hours because, he said, he wanted 
to essentially slaughter Mexicans and immigrants. And he 
lamented the, quote/unquote, ``Hispanic invasion.''
    And these are words that he repeated that we have heard 
from some of the most powerful leaders in the land, the same 
language used to describe members of my community by some of 
our elected officials.
    So this is, I think, a very important discussion. And I 
think something that was mentioned earlier, we have to call 
this out. When we don't call it out, we essentially give it 
cover. When we give it cover, we give it life and we give it 
power. And there is no greater testament to that than what 
happened in El Paso, Texas, on August 3rd.
    I am going to open up this question to all three of our 
panelists.
    I want to first acknowledge that military leaders have 
taken steps to publicize their opposition to the hatred and 
extremism that has been on display at events like the 2017 
Unite the Right rally in Charlottesville, Virginia. And I 
applaud our military leaders for saying unequivocally that 
those are not our values.
    However, I was deeply disappointed to see an individual 
nominated for the top personnel job at the Department who has 
espoused a dangerous and radical intolerance for 
multiculturalism in America, which is essentially the 
foundation of who we are as a country.
    J. David Patterson was a Presidential appointment, but he 
previously served as a principal deputy under secretary. Should 
we be concerned that someone who--obviously, he was a 
Presidential nominee, but he was within the Department of 
Defense for many years and rose through the ranks.
    What does it tell us, that someone is able to ascend in 
this manner with these kinds of views about minorities and 
about America?
    Dr. Beirich. Well, I will just say that I think it is 
completely unacceptable. You cannot have somebody working in 
the Department of Defense, involved with the Armed Forces, the 
Pentagon, who doesn't believe the bedrock principles about 
equality. And that has been said from, you know, top generals 
and other officials for a very long time and is stated in these 
regulations.
    So it just should not be the case that somebody who 
disagrees with that vision of our society and how it is 
reflected in the Armed Forces should be in any position of 
power.
    Ms. Escobar. Yes, sir.
    Dr. Pitcavage. Representative, first, I would like just to 
say that I share the grief that you felt over El Paso. I grew 
up in El Paso. My family still lives in El Paso. And I used 
to--excuse me--I used to ride my bike to the place where the 
shooting occurred.
    I think Representative Kelly made an excellent point when 
he talked about the military as being one of the most diverse 
institutions in our country. Forty percent of our military 
personnel, Active Duty military personnel, are a racial or 
ethnic minority. More than 50 percent of the women in the 
services are. And our military recognizes over 200 religious 
faiths.
    And we need leaders, civilian and military leaders alike, 
who appreciate, acknowledge, and support that diversity, which 
is a strength.
    Ms. Escobar. Absolutely.
    Ms. Brooks. And adding my condolences, as well, and to you.
    I think it shows us and reminds us that one person--and I 
think the ranking member mentioned--that one person can do so 
much damage. That is why it is important for each of us to call 
it out each and every time.
    Ms. Escobar. And with the very limited time I have, Dr. 
Beirich, you mentioned screening mechanisms. Could you give us 
an example of one of the--like, what we could do, something 
tangible?
    Dr. Beirich. Well, I think one of the most important things 
here is, what happens with recruits when they come in is they 
self-report what their activities have been and so on. It is 
not very detailed. It says things like, have you been part of a 
domestic terrorist organization or something along those lines. 
I think the questions should be deeper. There should be more 
about people's racial views, views about ethnicity, religion.
    And I also think that people that are coming into the 
military need to report basically what their social media 
accounts look like and then be verified. Whether that is to 
intervene at that point to help someone move away from these 
views or it is to simply say, this is an unacceptable 
situation.
    So those are the kinds of things that I would look at.
    And military climate surveys should include questions about 
these issues, as was proposed by the House in this last Defense 
Authorization Act, and they don't right now. So the Military 
Times polls now, 3 years in a row, which show these horrifying 
numbers of how many people have seen White nationalism and 
extremism in the military, are a stand-in for that--right?--and 
the military should be collecting that information.
    And let me just say, with the 2017 Military Times poll, if 
the numbers are accurate to the full amount of Active Duty 
troops at that time, which was about 1.3 million, it would mean 
325,000 people in the Armed Forces had seen White nationalism 
or racism. That is a pretty extraordinary number.
    And, given the numbers, as Dr. Pitcavage just pointed out, 
that is a whole lot of minority troops--right?--troops of 
color, who are suffering under this situation. And, frankly, it 
would be a hostile work environment if it was in----
    Ms. Escobar. Uh-huh.
    Ms. Beirich [continuing]. The civilian world. So, I mean, 
it is a serious matter. And data is needed, and then that data 
needs to be addressed.
    Ms. Escobar. Thank you all.
    Thank you, Dr. Pitcavage.
    I yield back.
    Ms. Speier. Thank you.
    Mr. Cisneros, you are recognized for 5 minutes.
    Mr. Cisneros. Thank you, Madam Chairwoman.
    And thanks to our panel for being here today.
    How can the Department better prepare service members, for 
instance, of White nationalist groups attempting to recruit 
them? Could they benefit from something akin to 
counterintelligence training to counter White nationalist 
recruitment?
    And I know, Dr. Pitcavage--and I am sorry if I mispronounce 
your name--but you mentioned, like, a lot of that is done over 
the internet now. But how do we go to out there and how do we 
train the troops--is there a way to train them--to kind of 
recognize when they are being recruited to these specific 
groups? And how do we prevent that?
    Dr. Pitcavage. Well, I think that is a really interesting 
question.
    I think we warn our military personnel about a number of 
different dangers, a number of different issues, including 
those online. The services all have social media policies that 
warn them about scams, that warn them about all sorts of 
dangers that they might encounter online. It is possible, 
similarly, to warn them to look for some of the signs that they 
may be targeted by an extreme group that is trying to provide 
them with false narratives, that is trying to indoctrinate 
them, that is trying to radicalize them.
    And so I think there are steps that we could do to make the 
troops more aware that this is one of the things out there that 
people might try to do.
    Mr. Cisneros. I would love to hear from the other two 
panelists as well.
    Dr. Beirich. Well, I think that what Dr. Pitcavage said is 
right. I mean, it is not as though there aren't primers out 
there about the signs of White nationalism, the symbols of 
White nationalism, some of the main groups. This is all 
information that could be shared, that unit commanders could be 
trained on.
    You know, I have found that there just are some missing 
issues: that there is no extremist tattoo database in the 
military to use to identify these things, and, as a result, 
investigators aren't trained on what these symbols are. In the 
case of this Atomwaffen group that had an Active Duty guardsman 
in it, he had a tattoo of his very scary neo-Nazi organization 
on his arm, and nobody knew what it was about.
    So I think there is a whole lot of education on the 
investigatory level, on the recruitment level, and then for the 
troops in general on, sort of, signs to look out for for White 
supremacists trying to recruit them. Because they are 
absolutely trying to recruit them.
    Mr. Cisneros. Uh-huh.
    Ms. Brooks. And I completely agree.
    And I would add that we really all need to talk about it, 
it needs to be okay to talk about it. I would imagine that 
conversations happened, again, referencing the desegregation of 
the Armed Forces, people talked about it and they talked about 
how to manage it and handle people's concerns and anxieties. 
And we need to approach this, I think, in the same way.
    And once we do that and we have established some mechanisms 
to train and to educate folks, then we can demand a zero-
tolerance policy and then offer support services to those who 
are not able to meet the mission.
    Mr. Cisneros. Okay.
    According to an article in ProPublica in 2018, the 
Atomwaffen Division, a violent neo-Nazi group tied to five 
murders and a bomb plot, at least some of their members were 
serving in the U.S. Armed Forces. And you just stated that.
    I again ask the panelists, in your opinion, how high a 
priority is the focus of military leadership on eliminating 
White supremacy from our military ranks?
    And I know you said there were regulations that we have 
written, but my other question too is, why haven't we put these 
groups in the UCMJ, outlawing them in the UCMJ?
    Dr. Beirich. Well, that is a very good question, and it is 
hard to know how to answer what you are saying. The only data 
that I could find is that about 25 troops, not all of them 
White supremacists, were removed in a 5-year period for 
extremist ties. I think those numbers are ridiculously low. 
Just in the testimonies that we have written for you all here, 
all of us, we have documented more than that in the last year.
    So I think that there is a big problem here in trying to 
figure out how many investigations go on of this, who is 
identifying extremists, how is this being reported. There is 
supposedly a report the Pentagon does every year internally on 
White supremacy in the military. Is that happening? What is it 
indicating?
    I mean, it is just very hard to answer your question 
because there is no transparency and no data.
    Mr. Cisneros. Go ahead, sir.
    Dr. Pitcavage. I would just like to agree that, without 
being alarmist about the nature of the problem, there is a 
problem about White supremacy in the military, but our military 
leadership may not realize the full extent of it simply because 
the data and the transparency is not there.
    Mr. Cisneros. Uh-huh. All right.
    Well, with that, I am out of time, and thank you very much.
    And I yield back.
    Ms. Speier. I thank the gentleman.
    Now we will hear from the gentleman from Maryland, Mr. 
Brown.
    Mr. Brown. Thank you, Madam Chair. And thank you for giving 
me an opportunity to waive onto the committee today.
    I want to thank the members of the Military Personnel 
Subcommittee for your work. You wrestle with some of the 
thorniest issues that face Congress and the House Armed 
Services Committee.
    Ms. Brooks, I think you are right, we should listen to our 
soldiers. There are a lot of ways that the military can: 
commanders in the chain of command, EO officers, inspector 
generals, JAG [Judge Advocate General] officers, chaplains, and 
also climate surveys.
    And, Dr. Beirich, you mentioned in your testimony about the 
watering down of a provision in the NDAA [National Defense 
Authorization Act] that was offered by the House. I was the 
lead author, joined by a number of my colleagues.
    These hearings are often an opportunity for us to really 
establish the record that supports what we are trying to 
accomplish in the NDAA. In that amendment, it was very 
specific. It said that the Secretary of Defense will include--
or shall include in the workplace and equal opportunity, 
command climate, and workplace and gender relations surveys 
administered by the Office of People Analytics of the 
Department of Defense, questions regarding whether respondents, 
if ever, experienced or witnessed in the workplace supremacist 
activity, extremist activity, or racism--it probably also 
should include anti-Semitism--and whether you have reported 
activity described in paragraph 1. It was watered down to 
include extremist activity.
    And I think, Ms. Brooks, in your written testimony, you 
pointed out how, in the screening procedures, that too was 
watered down. Somewhere between the House and coming through 
conference, someone, somebody, some organization has an 
aversion to the use of either ``White supremacy'' or 
``supremacist'' activity in the NDAA, and it gets watered down.
    So could you please make the strongest argument why, 
whether it is in screening or whether it is in the survey, we 
have to be specific?
    Dr. Beirich. Well, let me just say, aside from the danger 
to the troops themselves, especially troops of color--and thank 
you for pursuing this issue, because I think it is critically 
important--the biggest problem is that White supremacy is 
distinct from other forms of extremism, and it is deadly to the 
United States.
    We have had far too many former soldiers--Timothy McVeigh 
is best known, but Eric Rudolph, who bombed the Olympics in 
1996, and many other soldiers who have been involved in serious 
domestic terrorist attacks were people who shared that 
particular point of view.
    And those people then are coming out of the military and 
joining up with groups like The Base that was mentioned here, 
Atomwaffen, or they are Active Duty, and they are a threat to 
the American public, and they are a threat to people overseas 
anywhere White supremacy is functioning, anywhere our troops 
are if they are involved in these issues.
    And White supremacy is a distinct problem. It is also 
indigenous to the United States. I don't think we should forget 
this, right? White supremacy is born and bred out of our 
history. And it needs to be tackled.
    The Armed Forces have been a shining light in calling this 
out, so we should be specific. We need to know, do people 
around you have White supremacist views, White nationalist 
ideas? What are you seeing? This is really critical information 
to stop domestic terrorism, hate crimes, all kinds of violence.
    Mr. Brown. Thank you.
    Ms. Brooks.
    Ms. Brooks. Thank you so much. I appreciate your efforts as 
well. And I completely agree with everything that Dr. Beirich 
said.
    I would point your colleagues in Congress back to the joint 
resolution that was passed unanimously post-Charlottesville. 
And in there, they rejected--and they named it--White 
nationalism, White supremacy, neo-Nazism as hateful expressions 
of intolerance that are a contradiction to the values that 
define the people of the United States.
    We cannot just say these things post-crisis or post-
massacre. We have to be about trying to thwart these attempts 
every day, because, as Dr. Beirich said, I mean, it is a clear 
and present danger. I don't know how to make it more clear. Our 
history shows it, and we will just continue to repeat it until 
we face it head-on. White supremacy is just that serious.
    Mr. Brown. Thank you.
    I yield back, Madam Chair.
    Ms. Speier. Thank you.
    I would like to just ask one last question. The Base, as an 
organization, had an intention to derail some trains, kill some 
people, poison some water supplies. What do you know about The 
Base? And do we have representatives here in the United States 
that are associated with that organization? I know the leader 
appears to be in Russia. But what do we know about----
    Dr. Beirich. Well, from the arrest that you mentioned in 
your opening remarks, we know that we have members of The Base 
here in the United States, which, I should just point out, the 
name itself is a translation of ``al-Qaida.'' So it shows you 
that there is this symbiosis in terms of dangerous, dangerous 
threats.
    And, yes, they have a violent, violent--the list of what 
they have been arrested for is very scary, including murdering 
people. And there are, you know, probably certain dozens of 
members of this organization in the United States and also 
abroad.
    What was interesting in that case is there was a member of 
the Canadian military who was also arrested, so it shows that 
this is an international problem. And it is run out of Russia--
right?--which is a red flag as well. So it is a serious matter.
    Ms. Speier. All right. Thank you.
    Any other comments?
    Dr. Pitcavage.
    Dr. Pitcavage. I think one thing that is worth pointing out 
about The Base is that it is part of a new wave of White 
supremacist group that are called accelerationist groups. And 
accelerationists are extreme in a very unique way. They believe 
that present society is not redeemable. They can't shape it 
into the White-dominated or White-only society that they seek; 
that the only thing that they can do is actually destroy our 
society and then build something new from the ashes.
    And so accelerationists believe that any sort of violence, 
anything that will destabilize the system, even senseless 
violence, is actually good if it will help bring down the 
system that they so want to destroy and replace. And, you know, 
groups like that, you know, are particularly dangerous and are 
particularly liable to engage in violent acts.
    Ms. Speier. Anything further?
    All right.
    Any----
    Mr. Kelly. No, ma'am.
    Ms. Speier. All right.
    I want to again thank you all for your testimony this 
afternoon. It was very enlightening.
    We will now take a short recess and switch out to our 
second panel.
    [Recess.]
    Ms. Speier. The hearing will come to order once again.
    I would like to welcome our second panel.
    We are joined this afternoon by Mr. Garry Reid, who is the 
Director for Defense Intelligence, Office of the Under 
Secretary of Defense for Intelligence; Ms. Stephanie Miller, 
Director of Accessions Policy, Office of the Under Secretary of 
Defense for Personnel and Readiness; Mr. Joe Ethridge, Chief, 
Criminal Intelligence Division, U.S. Army Criminal 
Investigation Command; Mr. Christopher McMahon, Executive 
Assistant Director, National Security Directorate, the Naval 
Criminal Investigative Service; and, finally, Mr. Robert 
Grabosky, Deputy Director of AFOSI [Air Force Office of Special 
Investigations] Law Enforcement, U.S. Air Force Office of 
Special Investigations.
    Mr. Reid, we will begin with you.
    Mr. Reid. Thank you, Madam Chair and Ranking Member. On 
behalf of the entire team here, I would just like to convey our 
appreciation for your time and interest and for the committee's 
support to the Department in getting at this problem.
    If you would allow, Madam Chair, I represent the background 
investigation piece of this process. And in a logical order, I 
would like Ms. Miller to begin, and then I will come back and 
do it, because it is the front end on accessions, and then we 
will go through to the military departments. Thank you.
    Ms. Speier. That is appropriate.
    Ms. Miller.

  STATEMENT OF STEPHANIE MILLER, DIRECTOR, ACCESSIONS POLICY, 
  OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND 
                           READINESS

    Ms. Miller. Good afternoon, Madam Chair, Ranking Member 
Kelly, and members of the subcommittee. My name is Stephanie 
Miller, and I am the Director of Accessions Policy under the 
Under Secretary of Defense for Personnel and Readiness. I am 
pleased to appear before you today to provide testimony on this 
important issue.
    And I want to take a moment to thank the members of the 
first panel for their knowledge and expertise in this area, 
which the Department truly does value.
    As Director of Accessions Policy, I am responsible for the 
oversight of all matters pertaining to the recruitment and 
accession of both officers and enlisted personnel. In this 
capacity, I am responsible for establishing policy in 
recruitment matters, overseeing the establishment and adherence 
to enlistment standards, providing oversight of resources, 
managing the accessions process, and other matters relating to 
the general sustainment of the All-Volunteer Force.
    Each year, the Department recruits approximately 400,000 
applicants for military service, of which approximately 250,000 
individuals actually contract into the All-Volunteer Force.
    We remain committed to recruiting high-quality applicants 
representative of the Nation that they will serve. And while 
today's economy has brought challenges to military recruiting, 
the Department has been steadfast that the services should and 
will adhere to our established policies and only enlist 
officers and enlisted candidates that actually meet our high 
standards.
    The life cycle of military personnel from accessions 
processing to separation is a complex process which is 
constantly evolving based on best practices and newly learned 
information.
    The beginning of the life cycle starts with each new 
member, whether enlisted or officer, undergoing a thorough 
screening process to ensure that they meet the high standards 
of today's military. This multitiered screening process enables 
a holistic review of each applicant.
    And using the tools available, we believe we have been 
effective at screening for individuals that have extremist 
ideologies or support extremist groups, but we continuously 
review our policies, our practices, and our methods for 
improvement.
    For example, the Department has recently launched a 
centralized screening capability that vets all accessions to 
identify and resolve indicators of questionable allegiance. And 
this new vetting process has proven successful over the summer 
in identifying unique adverse information not always available 
solely from the standardized background investigation form, the 
SF-86.
    Recruiters play a very critical role in assessing the 
qualifications and intents of the applicant. Each applicant is 
interviewed by a recruiter to obtain as much information and 
documentation as possible about the individual's qualifications 
for military service.
    At our military entrance processing stations, applicants 
undergo a full physical by trained military professionals and 
background searches of law enforcement and other records. 
Applicants answer questions about any involvement with law 
enforcement agencies, including arrests, charges, citations, 
parole or probation, detention, and any other form of 
potentially adverse adjudication regardless of the outcome.
    Furthermore, all applicants undergo an advanced fingerprint 
check, which provides a preliminary review of the history of 
any involvement with law enforcement, including the Federal 
Bureau of Investigation.
    Subsequent background checks screen recruits for extremist 
ties, including FBI investigative and criminal history files 
checks, terrorist and subversive activities checks, local law 
enforcement agency checks, and a review of the violent gang 
file at the National Criminal Information Center.
    Upon entry into the armed services, the Department, the 
military services, and the individual share a responsibility to 
ensure that members are afforded the opportunity to serve with 
dignity and respect in a very inclusive environment.
    The Department's overarching guidance is clear that 
military personnel must reject active participation and must 
not actively advocate supremacist, extremist, or gang criminal 
doctrine, ideology, or causes, including those that advance, 
encourage, or advocate illegal discrimination based on race, 
creed, color, sex, religion, ethnicity, or national origin or 
those that advance, encourage, or advocate the use of force, 
violence, or criminal activity or otherwise advance efforts to 
deprive individuals of their civil liberties.
    Beyond this overarching guidance, the Department continues 
to work with the services and other agencies to provide 
commanders and senior military leaders the tools that they need 
to keep informed about the activities or adverse behaviors of 
service members. Commanders, working with key stakeholders such 
as the services' criminal investigative offices, are swift to 
take appropriate action when warranted.
    We are gaining additional insights on service members 
through the deployment of new technologies and have also 
explored additional testing and screening techniques that 
assess a range of personality dimensions to identify applicants 
who best fit with the military's culture of treating all 
personnel with dignity and respect.
    In conjunction with more traditional qualification 
batteries, such as the ASVAB [Armed Services Vocational 
Aptitude Battery], these tools can be utilized as part of a 
whole-person applicant screening process and can tell us a 
great deal about the likelihood of successfully completing 
initial entry training, the first term of enlistment, and the 
ability of that individual to adapt to the rules, regulations, 
and requirements of military culture.
    DOD remains committed to ensuring that all personnel are 
treated with dignity and respect in an inclusive environment 
free from unlawful discrimination and maltreatment. This effort 
is accomplished while keeping each person's civil liberties 
intact. And while this is not always an easy endeavor, it is 
critical to protect our service members and those service 
members who we are sworn to protect throughout the country.
    Madam Chairwoman, I look forward to answering your 
questions in this manner and appreciate you offering this 
opportunity to discuss this very important issue.
    Ms. Speier. Thank you, Ms. Miller.
    Mr. Reid.

  STATEMENT OF GARRY REID, DIRECTOR FOR DEFENSE INTELLIGENCE 
(COUNTERINTELLIGENCE, LAW ENFORCEMENT, AND SECURITY), OFFICE OF 
        THE UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE

    Mr. Reid. Thank you, Madam Chair, Ranking Member Kelly. 
Again, I thank you for the opportunity to testify on my 
oversight of personnel security policy and the steps we take in 
the Department of Defense to develop and sustain a total 
workforce that embodies our values as Americans.
    I will focus my opening remarks on background 
investigations, insider-threat programs, and continuous 
evaluation, as these are the primary authorities and 
capabilities we employ to identify persons with extremist 
ideologies and deny them the opportunity to serve in the 
Department of Defense. Where indicated, we also ensure they are 
investigated for any policy violations or criminal behaviors 
and are held accountable for their actions.
    Once a person has been selected for military service, the 
Department initiates a comprehensive background investigation. 
All applicants must complete the ``Questionnaire for National 
Security Positions'' published by the Office of Personnel 
Management as Standard Form 86, or the SF-86.
    All military applicants, regardless of job code, must pass 
a rigorous background investigation that significantly exceeds 
the basic standards applied to many non-military persons that 
enter public service. This is a choice made by the Department 
of Defense in recognition that there is a high level of public 
trust in our military that necessitates a strong commitment to 
ensuring persons with criminal, extremist, or other undesirable 
characteristics are not allowed to serve in our ranks.
    Applicants are asked probing and detailed questions about 
their personal conduct, job history, encounters with law 
enforcement, drug use, credit, foreign travel, and associations 
with organizations dedicated to terrorism, the use of violence 
to overthrow the U.S. Government, and the commission of acts of 
force or violence to discourage others from exercising their 
constitutional rights.
    Background investigators supplement and enrich the self-
reporting data on the SF-86 with information provided by former 
educators, employers, coworkers, and neighbors of the 
applicants. Investigators check Federal and State law 
enforcement databases for criminal history and review public 
records, credit reports, and other automated data sources. 
Where needed, investigators initiate additional checks, 
including personal interviews.
    This information is aggregated in a report of investigation 
and submitted to a certified adjudicator, who assesses overall 
eligibility to hold a sensitive position and for military 
service against the 13 Federal adjudicative guidelines. Of the 
guidelines, personal conduct, criminal conduct, and allegiance 
to the United States are the primary criteria used to vet 
personnel that exhibit any extremist behaviors. While cases 
with allegiance are uncommon, overall, these three guidelines 
combine for almost half of the denials for military personnel.
    And keeping in mind, the prior screening Ms. Miller 
described happens in front of this, so you have already 
narrowed down to a more selective population by the time we run 
this.
    Applicants with favorable background investigation results 
are subject to two sets of monitoring procedures throughout 
their military service.
    Each of our military departments manage their own insider-
threat programs that serve as a conduit for reporting behaviors 
of concern that are observable in the workplace. All DOD 
personnel are mandated to report such behavior against the 
reporting thresholds for insider threat that are similar but 
not identical to the Federal adjudicative guidelines. The DOD 
component insider-threat hubs provide reporting to a central 
DOD insider-threat center, led by our Defense 
Counterintelligence and Security Agency.
    Presently, all DOD personnel are covered by at least 1 of 
the 43 insider-threat hubs distributed across the Department, 
and reporting of suspicious or alerting behaviors is steadily 
increasing. Any behavior that crosses an established threshold 
is assessed and acted upon by insider-threat hubs, the chain of 
command, or security managers within the owning component.
    In addition to monitoring for insider-threat behaviors at 
the component level, the Department also conducts a continuous 
evaluation program at the DOD level. Presently, 1.9 million DOD 
personnel are enrolled in our continuous evaluation system, and 
the Department has plans to enroll the full population by 
October 2021.
    Continuous evaluation complements insider-threat reporting 
by providing data from outside the Department with automated 
monitoring of multiple government, commercial, and public data 
sources for indicators of behavior that violate established 
standards of conduct.
    When alerts from continuous evaluation data sources 
indicate unacceptable behavior, the responsible security 
manager submits an incident report that is subsequently 
reviewed by the chain of command and the DOD Central 
Adjudications Facility. If appropriate, the incident can be 
referred to a law enforcement or counterintelligence 
investigation. If indicated, the subject can be ultimately 
removed from eligibility to hold a position and processed for 
separation from military service.
    Madam Chair, I will just close by highlighting that this is 
a dynamic process that is always in a state of improvement. As 
some members know and we briefed here, and supported by 
Congress, the government is in the process of adding additional 
controls in what we call the personnel vetting enterprise, 
moving to a continuous vetting model across the entire 
government. So everything I have described to you will continue 
to be refined and enriched to where we have the greatest degree 
of awareness of where threats are across the Department, 
including those posed by those with extremist attitudes.
    Thank you, Madam Chair, for your time, and I look forward 
to your questions.
    [The joint prepared statement of Mr. Reid and Ms. Miller 
can be found in the Appendix on page 127.]
    Ms. Speier. Thank you, Mr. Reid.
    Mr. Ethridge.

STATEMENT OF JOE E. ETHRIDGE, JR., CHIEF, CRIMINAL INTELLIGENCE 
       DIVISION, U.S. ARMY CRIMINAL INVESTIGATION COMMAND

    Mr. Ethridge. Good afternoon, Chairwoman Speier, Ranking 
Member Kelly, and members of the subcommittee. I am Joe 
Ethridge, Chief of the Criminal Intelligence Division, Army 
Criminal Investigation Command [CID]. Thank you for the 
opportunity to appear before you today to provide testimony on 
the important issue of racially motivated extremist threat.
    As the Chief of CID's Intelligence Division, I am 
responsible for identifying and assessing criminal threats 
confronting the Army and assisting in developing courses of 
action to prevent or mitigate.
    The CID identifies soldiers suspected of participating in 
extremist activities in multiple ways, to include chain-of-
command reporting, local police, the media, public-facing 
social media searches, tip-line reports, and FBI domestic 
terrorism investigative reporting. We evaluate these reports to 
identify supporting facts.
    The majority of the soldiers identified as participating to 
some extent in extremist activities are not subjects of 
criminal investigations. The more common scenario is 
participation in an online forum that might be expressing 
extremist or supremacist views.
    In these instances, CID notifies commanders via information 
report for action in accordance with Army policy. Commanders 
have the authority to counsel, train, and take disciplinary 
action to preserve good order and discipline in the unit. 
Additionally, CID notifies the DOD Consolidated Adjudications 
Facility and the Intelligence and Security Command for 
personnel security adjudication.
    The CID initiates investigations when indications or 
allegations of a crime are present. In early 2019, CID observed 
a small increase in criminal investigations initiated with 
soldier participation in extremist activities as a component. 
Specifically, there were 7 criminal investigations initiated 
with an extremist-activity component in 2019, in comparison to 
an average of 2.4 per year in the fiscal year 2014 to 2018 
period. This includes soldiers from all components--Active 
Duty, National Guard, and the Army Reserve.
    During the same time period, the Federal Bureau of 
Investigation notified CID of an increase in domestic terrorism 
investigations with soldiers or former soldiers as suspects. 
The FBI reporting also clearly stated that extremist 
organizations were actively seeking veterans' skills.
    In May 2019, the Provost Marshal General of the Army and I 
briefed the Vice Chief of Staff of the Army and members of the 
Army Staff on the CID and FBI observations. The Vice Chief of 
Staff of the Army directed the formation of a working group to 
review current policies and procedures to prevent and address 
extremism in the ranks.
    The working group recommended several adjustments to the 
Army policy for soldier participation in extremist activity 
stated in Chapter 4-12 of Army Regulation 600-20. That is Army 
Command Policy. The revision of AR [Army Regulation] 600-20 is 
scheduled for release in the second quarter of this year.
    Internally, CID expanded its liaison relationship with the 
FBI, traditionally centered on the National Joint Terrorism 
Task Force and the National Gang Intelligence Center, into the 
FBI's Domestic Terrorism Operations Unit.
    In summary, over the past year, CID has increased 
collection efforts, informed Army leadership of our 
observations, participated in the review and changes to Army 
policy, expanded our relationship with law enforcement 
partners, and made notification to commanders.
    Additionally, CID has formulated a request to the Army 
Inspector General to add unit implementation of extremist 
activity policy that is encapsulated in AR 600-20 as a focus 
area for the next inspection cycle for Army-wide inspector 
general inspections.
    The Army is postured to identify extremist activity in the 
ranks and has both the policy and the leadership tools to 
prevent emergence as a pervasive issue.
    Madam Chairwoman, I am happy to answer any questions you or 
the members of the subcommittee may have at this time.
    [The prepared statement of Mr. Ethridge can be found in the 
Appendix on page 135.]
    Ms. Speier. Thank you, Mr. Ethridge.
    Mr. McMahon.

   STATEMENT OF CHRISTOPHER J. McMAHON, EXECUTIVE ASSISTANT 
    DIRECTOR, NATIONAL SECURITY DIRECTORATE, NAVAL CRIMINAL 
                     INVESTIGATIVE SERVICE

    Mr. McMahon. Good afternoon, Chairwoman Speier, Ranking 
Member Kelly, and distinguished members of the subcommittee. 
Thank you for the opportunity to testify today on extremism in 
the military.
    I am Christopher McMahon, the Executive Assistant Director 
of the National Security Directorate for the Naval Criminal 
Investigative Service, NCIS. I am pleased to have the 
opportunity this afternoon to appear before you and provide 
testimony on this topic.
    As Executive Assistant Director of the National Security 
Directorate, I lead our investigations and operations 
confronting the intelligence and terrorism threats posed to the 
Department of the Navy personnel, assets, research, and 
technologies. My team also addresses all force protection 
issues affecting the United States Navy and the United States 
Marine Corps, to include expeditionary force engagements, ship 
visits, and static forces support.
    The Naval Criminal Investigative Service is currently 
conducting multiple domestic terrorism investigations involving 
racially motivated extremism directed against or affecting the 
personnel in or associated with the Department of the Navy.
    These investigations receive immediate priority attention. 
Our highly skilled civilian Federal law enforcement 
professionals use all available resources to address these 
matters, working closely with the FBI, our fellow military 
criminal investigative organizations, and additional Federal 
and local partners to address these threats.
    Over the course of fiscal year 2018, the Naval Criminal 
Investigative Service experienced an increase in the number of 
domestic extremism related reports from the Federal Bureau of 
Investigation involving Department of Defense-affiliated 
personnel. In response to these referrals and to more 
accurately reflect the scope of these incidents, NCIS 
established the unique case category ``domestic terrorism'' for 
investigative and operational reporting purposes.
    NCIS generally defines domestic terrorism as terrorism 
perpetrated by individuals and groups inspired by or associated 
with primarily U.S.-based movements that espouse extremist 
ideologies of a political, religious, social, racial, or 
environmental nature.
    NCIS investigates crimes associated with domestic extremist 
organizations when there is an apparent Federal violation, 
identified violent extremist ideology, and an active service 
member or current Department of the Navy civilian employee who 
has expressed an aspiration to further the identified violent 
ideology by threats, acts of violence, or other enabling 
criminal activity. For instances in which a crime is suspected, 
a general crimes investigation under the appropriate case 
category within NCIS for the crime is initiated.
    NCIS does not pursue investigations of Department of the 
Navy-affiliated individuals who simply make statements 
indicating they share the beliefs or a subset of the beliefs 
held by domestic extremist groups unless information exists 
indicating their activities meet this threshold. In 
investigations where it is determined crimes are not evident, 
information is passed to appropriate commands for 
administrative actions deemed appropriate by the commands 
involved.
    In conclusion, the predication for domestic terrorism 
investigations typically comes from command complaints, other 
investigative agency referrals, or tips. For example, NCIS 
maintains formal information-sharing agreements with the FBI on 
terrorism matters. These same well-established channels serve 
as the primary method of information sharing on domestic 
terrorism matters involving Active Duty service members or 
current Department of the Navy employees.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. McMahon can be found in the 
Appendix on page 139.]
    Ms. Speier. All right. Thank you.
    Mr. Grabosky.

     STATEMENT OF ROBERT S. GRABOSKY, DEPUTY DIRECTOR, LAW 
  ENFORCEMENT, STRATEGIC PROGRAMS AND REQUIREMENTS, U.S. AIR 
             FORCE OFFICE OF SPECIAL INVESTIGATIONS

    Mr. Grabosky. Chairwoman Speier, Ranking Member Kelly, and 
members of the subcommittee, thank you for the opportunity to 
address you on this topic.
    As the Deputy Director for Law Enforcement, Strategic 
Programs and Requirements Division, Headquarters, Air Force 
Office of Special Investigations [OSI], I help oversee policy, 
training, and the resources necessary to guide major criminal 
investigations impacting Department of the Air Force.
    OSI has agents assigned to over 250 locations around the 
world, to include 22 locations with the Joint Terrorism Task 
Force, engaged in collaborative efforts with other Federal law 
enforcement partners on matters of mutual concern, such as 
matters involving domestic extremism.
    Pertaining to the topic of possible White supremacists 
within the ranks of the military, Department of the Air Force 
and OSI are very concerned with early identification and timely 
resolution of matters involving possible extremist activity 
affecting good order and discipline within our Air and Space 
Forces.
    In fact, Department of the Air Force has a written punitive 
policy pertaining specifically to participation in extremist 
activities. The policy specifically states military personnel 
must reject active participation in criminal gangs and other 
organizations that, among other things, advocate supremacist, 
extremist, gang doctrine, ideology, or causes.
    Military members who violate this policy are subject to 
disciplinary action under Article 92 for failure to obey a 
lawful order under the Uniform Code of Military Justice.
    It is important to note that the Air Force policy dictates 
mere membership in the organization is not prohibited. OSI has 
investigative responsibility to investigate these matters where 
military members who are subject to the Uniform Code of 
Military Justice are suspected of active participation in 
extremist or supremacy groups prohibited by the Air Force 
instructions.
    Since 30 September 2019, OSI received about nine reported 
incidents involving possible supremacy activity on the part of 
Air Force members. These incidents came to our attention in 
various ways. Out of the nine reports, OSI opened eight 
investigations and referred one incident to Security Forces for 
further investigation.
    Out of the eight OSI investigations, only one involved 
active participation by the member. One incident was disproven, 
and the remaining six involved inappropriate or racially 
insensitive verbal comments or online postings, which was 
referred back to command for action.
    For the one active participation incident, the accused's 
command administered administrative action and a reduction in 
rank. As an impartial and independent investigative agency for 
the Air Force, OSI does not make recommendations on potential 
punitive or administrative actions.
    It is also important to note OSI conducted more than 2,500 
criminal investigations in 2019. Most of these criminal 
investigations involved some form of data exploitation, such as 
extraction of information from cell phones, other personal 
computer devices, or reviews of social media applications. Our 
law enforcement data exploitation activities over the past year 
of thousands of devices and social media accounts have not 
resulted in identifying additional extremist activity within 
our Air and Space Forces.
    Even though the amount of extremist incidents for 
Department of the Air Force remains small, OSI and its criminal 
investigative agents remain vigilant to identify and quickly 
resolve matters involving possible extremist activity affecting 
good order and discipline within our Air and Space Forces.
    I thank the committee for the opportunity to provide 
insight into some of the exceptional work our agents do every 
single day, and I look forward to providing additional 
information as this hearing continues.
    Thank you.
    [The prepared statement of Mr. Grabosky can be found in the 
Appendix on page 142.]
    Ms. Speier. All right. Thank you.
    Let me start with you, Mr. McMahon. In your statement, you 
make the statement, ``NCIS does not pursue investigations of 
Department of the Navy-affiliated individuals who simply make 
statements indicating they share the beliefs of a subset of the 
beliefs held by domestic extremist groups.''
    So, if I say I am a racist, I am not going to be 
investigated, I am not going to be evaluated as to whether or 
not I should be kicked out?
    Mr. McMahon. Ma'am, so we, NCIS, would not actually conduct 
an investigation. We would refer that back to the command of 
the member who is--is a member of that command.
    So we would refer that member back to the command, provide 
the command that information, the information that we have 
gained in any sort of manner, and then allow the command to 
take care of them in the appropriate manner.
    Ms. Speier. All right.
    Mr. Grabosky, you said specifically that ``mere membership 
in the organizations is not prohibited.'' But if you had a 
tattoo of that organization, that would be actionable?
    Mr. Grabosky. Chairwoman Speier, mere participation is not 
something that OSI actually investigates. We actually 
investigate the active participation of a member.
    There are many avenues within the military, including 
command or equal opportunity offices, that conduct 
investigations of viewpoints of individuals. If it does not 
rise to the level of a felony investigation of active 
participation, we don't get involved in----
    Ms. Speier. Okay. You are missing my point.
    Mr. Grabosky. I am sorry.
    Ms. Speier. You are saying active participation equals 
something like a tattoo but active participation does not equal 
being a member of one of these extremist organizations, and I 
find that astonishing.
    Mr. Grabosky. According to Air Force policy right now, 
active participation is actually attending rallies, fundraising 
for them, or actually being part of the organization and 
actively involved in it.
    Ms. Speier. But if you are a member, that is a level of 
activity. I think we need to look at that.
    Ms. Haaland had referenced an Air Force individual who was 
not dismissed or discharged. Can you explain to us why?
    Mr. Grabosky. The information received to us of being part 
of an extremist organization, we opened an investigation, we 
produced a report, and we provided it to command, and command 
took action.
    As I said in my statement, OSI does not get involved in 
determining punishments. That is in the legal realm of the 
United States Air Force, and the investigative agency is not 
involved in that process of making a decision.
    Ms. Speier. And, in your experience, have you found that 
when you have completed your investigations and referred them 
back to the command, are you ever made aware of whether or not 
they take action?
    Mr. Grabosky. Yes. If it rises to the level of 
administrative action, we get an after-action report that we 
have to update our files with.
    Ms. Speier. And do you convey that to the FBI?
    Mr. Grabosky. If it rises to the level for criminal 
indexing, yes. All our investigations abide by criminal 
indexing of convictions. In this incidence, I believe he 
received an administrative punishment, which does not get 
reported to the FBI as a criminal conviction.
    Ms. Speier. Can you explain to us--okay. So, in this case, 
he remains in the military. He had nonjudicial punishment, it 
sounds like. Is that correct?
    Mr. Grabosky. I am aware that--I believe he received a 
letter of reprimand.
    Ms. Speier. So it was even--it was a letter of reprimand.
    Mr. Grabosky. Correct, ma'am.
    Ms. Speier. So no action taken regarding rank, pay, 
anything like that.
    Mr. Grabosky. He received an administrative reduction in 
rank by one rank, in conjunction with the letter of reprimand. 
I am aware of that.
    Ms. Speier. And can you remind us again what he was 
actually engaged in?
    Mr. Grabosky. He was an active participant of Identity 
Evropa.
    Ms. Speier. So he is an active participant in this----
    Mr. Grabosky. He was fundraising.
    Ms. Speier. He was fundraising for this organization, and 
he is still in the military.
    Mr. Grabosky. As I said, ma'am, that is a decision that is 
beyond the criminal----
    Ms. Speier. I realize my disbelief is not something that 
should be registered to you but to his command, but I am 
astonished by it, because I think the potential for placing our 
service members at risk is so great.
    In the cases that you have--and if you can answer this, if 
you would like--that you have investigated, how many of them 
come to your attention because of a bystander, another service 
member who alerts you to it?
    Mr. Ethridge. Ma'am, I can't give you a specific count, 
but----
    Ms. Speier. Majority? Minority?
    Mr. Ethridge [continuing]. Tip line--I wouldn't say it was 
a majority, but a common way for us to receive complaints is 
through the tip-line process. We have an automated tip line. 
Normally the source of those tips is a fellow soldier or a 
family member.
    Ms. Speier. Is that the case for all of you?
    Mr. McMahon.
    Mr. McMahon. Ma'am, all of the 14 ongoing investigations we 
are in the process of investigating right now have all come to 
us via the FBI. So we are working in partnership with the FBI. 
At this time, we haven't had one complaint come forward off of 
our tips line regarding White supremacy groups or any other 
racially motivated groups.
    Ms. Speier. I have exceeded my time, so I will come back 
for a second round.
    Ranking Member Kelly.
    Mr. Kelly. Thank you, Madam Chair.
    I want to talk to you two, because you are the guys who 
have the authority to do something.
    And it amazes me--I just completed a course last week, and 
there is a book, ``Great New Work,'' and we had to read that. 
But in it, it talks about the 1944 OSS [Office of Strategic 
Services]--which is the precursor of the CIA [Central 
Intelligence Agency]--sabotage manual for Germany, written by 
William Donovan, and it was the field manual. And it said 
things like, ``Insist on doing everything through channels. 
Never permit shortcuts to be taken in order to expedite 
decisions. Make speeches. Talk as frequently as possible and at 
great length. Illustrate your points. When possible, refer all 
matters to committees. Make committees as large as possible, 
preferably be more than five. Bring up irrelevant issues as 
frequently as possible. Haggle over wording and details.''
    You guys are Department of Defense, okay? The climate 
survey that we have talked about--we have a great Secretary of 
Defense. Secretary Esper is outstanding. And he is a business 
guy; he gets this. Why don't we write in the climate survey and 
ask the question that we want?
    You don't need congressional authority to do that, I don't 
think. I think you can write into your entry exam the exact 
questions that you want. I think you can put in the--you or 
someone, one of your counterparts, can write in the exact 
questions.
    And it doesn't just need to be White supremacy; it needs to 
be any--because we have to identify what it is in specifics. If 
it is White supremacy, we can't use the word ``extremism,'' but 
if it is something other than White supremacy, we can't use the 
word ``extremism.'' We have to use the specific words. So you 
can write into a climate survey to find out what it is.
    The second thing is the actions, it is--these guys can't do 
anything. They don't have the authority to prosecute or to say, 
this shall result in this. But at the DOD level, at the 
Department-head level somewhere, you do have the authority, 
without congressional authority, to say, if you are found as an 
active, passive, any other member in this organization or these 
organizations, you shall be removed from service or you shall 
be reduced in rank or you shall be criminally charged. We do 
have that authority.
    And I would just ask that--sometimes I think we get a big 
bureaucracy, and I really--you ought to go read that OSS field 
manual, and you will go, ``Holy cow, that sounds like 90 
percent of American businesses today and all of our government 
and all of our organizations.'' And we have to get away from 
that. And I think you guys can do that.
    So, that being said, what recommendations can you make for 
us to root out White supremacy or any other type of extremism? 
What can we do better to keep them out and to identify them and 
get them out?
    Ms. Miller. Yes, sir. And I certainly appreciate your 
comments.
    The responsibility to incorporate the requirement into 
climate surveys is within the Under Secretary of Defense for 
Personnel and Readiness. While my expertise is in accession, I 
am part of the Personnel and Readiness team, and so I 
understand that our colleagues who are experts with respect to 
our climate surveys are in the active effort right now to 
research and determine the best way to ask those questions to 
glean the most information possible.
    And so they are actively engaged, and we can provide an 
update on that work to the committee on their efforts in that 
regard.
    We do have, certainly, command climate surveys, and we have 
workforce equal opportunity surveys, both at the Active and the 
Reserve level, that do ask questions about racist and extremist 
group experience that they may be knowledgeable about, or hate 
crime incidents. And we do collect data on that and have for a 
number of years.
    The data that we have is slightly different than the 
results that we have seen from the Military Times poll, and so 
we want to take into account the information that they have 
collected. The information that the Department has collected is 
more----
    Mr. Kelly. I mean, I understand that, but what we have to 
do is, we know there are things we need to know right now.
    Ms. Miller. Yes, sir.
    Mr. Kelly. And so we can get the perfect answer and the 
perfect wording, or DOD can write a policy which asks the 
question and gets specific, and guess what? We don't have to 
write the question, we don't have to put--``Have you 
experienced any type of terrorism, racism,'' and put it down 
there and say, ``Please write in.'' That may be a more 
effective way, because then we get what they really think it 
is.
    But I think we have to execute, because, if not, we are 
relying on outside data, which is not scientific, which is the 
best that we have right now. But you have the capability 
through command and control to ask the question that gets us 
the data so we can make specific decisions to get it better.
    And my time is about to run out, but I thank you guys, and 
I think we are doing a lot of things right. But I think you 
guys can get the specifics without waiting for congressional 
authority to do that, and I would just ask that you please do 
that.
    And thank you all for what you do and for being here, and 
especially my law enforcement guys. As a former DA [District 
Attorney], I always appreciate you all.
    And I yield back.
    Ms. Speier. Mrs. Davis.
    Mrs. Davis. Thank you. Thank you, Madam Chair.
    And I know that several of you in the investigative 
services mentioned your work and the importance, really, of 
having the terrorist and subversive checks. But I am wondering, 
can you give us some more understanding of what happens after 
you have picked up something that concerns you?
    You toss that over to the FBI or--it sounds like a lot of 
things come to you from the FBI. So how does that work? And 
what is it that really triggers concern, and what doesn't?
    Mr. McMahon. Ma'am, I will take the lead on this one.
    When the FBI refers something generally to us, that is kind 
of how it flows back. If there is a military member or somebody 
attached specifically, for myself, to the Navy or the Marine 
Corps, the FBI refers that back to NCIS to work the 
investigation collaboratively.
    Mrs. Davis. Uh-huh.
    Mr. McMahon. At that point in time, usually what triggers 
that is either some online activity, that basically they find 
somebody online they can actually actively identify that that 
person is associated with the Navy or the Marine Corps and that 
they have potentially talked about being able to procure 
weapons or take some sort of action. And so they refer that 
back to us.
    And we work that collaboratively with the FBI, looking to, 
you know, continue the investigation, monitor the activity not 
just online but holistically during the investigation, and then 
also look for any sort of other ties that they might have to 
other individuals within the military to make sure that we are, 
kind of, rooting out any additional problems that might exist.
    Mrs. Davis. Can you share, is it more usual that there are 
a number of people involved? Or this is sort of a loner, in 
many cases? Is it possible to----
    Mr. McMahon. Again, I am going off limited data, as was 
talked about earlier in the earlier panel. With the 14 
investigations that we have specifically focused on domestic 
terrorism, it is a little bit of a mixed bag.
    There are a few investigations that have indicated one or 
two other members that are in communication. But quite often 
they are involved in a group that the other members are not 
current military, potentially maybe have been foreign 
military--or former military. But, currently, a lot of times, 
they are just in communication with people that are just 
espousing the same viewpoints.
    Mrs. Davis. Uh-huh.
    Mr. Ethridge, did you want to comment on that?
    No? Oh, okay. That is fine. Thank you.
    Before the Marines United scandal, it is my understanding 
we certainly didn't check people's social media when they were 
being recruited. Is that correct? Or were you looking at social 
media at that time?
    Ms. Miller. So I can answer that, ma'am.
    So, right now, social media checks are not a part of the 
recruiting process. That is an element that we are working in 
collaboration with our colleagues in the intelligence community 
to determine how best to potentially incorporate that 
requirement.
    Mrs. Davis. I think when that happened I was shocked, 
actually, that you didn't do that. Because certainly, as 
Members, you know, even within our offices, that is something 
that people talk about. And, often, people are very aware that, 
you know, we ask them to show us some of--you know, to show us, 
would they mind sharing that information.
    So if we are not checking that at recruitment, isn't that a 
real gap?
    Ms. Miller. So, right now, the recruiting process is a 
multitiered approach, starting with a recruiter who asks a 
number of questions during the recruitment interview. And, 
also, we pull local record checks, and then we also do the FBI 
check that I had mentioned before with the fingerprint check.
    And then, once we have that information and the individual 
appears to be suitable for military service, if they are 
contracted, then they fill out that SF-86 form that we 
mentioned that initiates the background investigation process. 
And Intelligence then takes it from there, and they can do 
additional work beyond what we have done at an initial entry 
level.
    And Mr. Reid can speak more to that.
    Mr. Reid. And once they sign that SF-86, for the past 3\1/
2\ years it has been written in that form, that they are 
granting consent to limited--I will say ``limited''--social 
media monitoring. It has to be publicly facing. We cannot go 
behind passwords, we cannot look in private chat rooms, et 
cetera.
    We don't do that on scale for every background 
investigation right now. We have the ability to do it if there 
are investigative leads that come through the process I 
described. We would like to do it on scale for everybody all of 
the time. We are still developing the right tools.
    There are pitfalls here. There is false information, of 
course, online.
    Mrs. Davis. Uh-huh. We understand.
    Mr. Reid. There is identity resolution. There is use of 
handles and avatars, that you sometimes don't quite know what 
you have.
    But, earlier on, you mentioned our work with the Office of 
People Analytics, one of the members mentioned that. The 
Personnel Security Research Center are great partners of ours. 
We are in the midst of yet another pilot to figure out how to 
do this. There are great returns on personal conduct and some 
on allegiance, making disparaging remarks where you think you 
are in private and it is associated with an anti-government 
attitude. So we see promise there.
    Our investigative friends can do this when we have leads 
and things that we really need to get into. In terms of a 
screening protocol, we haven't found the right success model 
yet. But we have the ability to do it if we need to.
    Mrs. Davis. Do you need help from Congress to do that 
better?
    Mr. Reid. I don't think so. I knew you would ask. We have--
well, no. You have given us the authority.
    And insider threat, by the way, you know, for the last 
three NDAAs, we have gained more scope of insider threat. 
Insider threat is a great tool.
    The things I described that we do in background 
investigations, those are Federal guidelines. Those are set by 
the DNI [Director of National Intelligence] for security and 
the Director of OPM [Office of Personnel Management] for 
suitability. We don't get wiggle room as an agency to do our 
own, right? Because there is a reciprocity factor.
    Insider threat is a much more flexible framework. We have, 
as I mentioned, programs in every one of our components. They 
are building; the reporting is building.
    And for my military criminal investigative organization 
colleagues, what they represent to you, they are enforcing U.S. 
Code. These things--and it was mentioned on all the panels 
today, that these behaviors fall below U.S. criminal code. But 
we have policies, we have military security policy.
    Separating someone from the service administratively 
sometimes takes time, and sometimes we don't rush to do it 
because we want to reserve the ability to take full action. But 
if an individual exhibits behaviors, even though they are below 
a criminal investigative charge, it is very likely going to 
make them unsuitable for a security clearance. And every member 
of the U.S. military has to qualify for a Secret clearance, 
whether they have access to Secret information or not. That is 
the bar that I describe.
    So it is very likely, without getting into any specific 
case, that when you follow through on the administrative side, 
an individual loses their eligibility to serve, and they get 
separated. It takes a little time sometimes.
    Mrs. Davis. Thank you.
    Ms. Speier. Mr. Cisneros.
    Mr. Cisneros. Thank you, Madam Chairwoman.
    And thank you all for being here today.
    Ms. Miller, I believe it was you who commented about the 
background checks and part of that that they do, and you look 
at the gang file. But a lot of these White supremacist groups, 
these alt-right groups that are committing some of this violent 
activity, like what happened in Charlottesville, aren't on the 
gang file. They are not classified as gangs. A lot of these 
international White supremacist groups that are becoming more 
popular online and that people are joining aren't classified as 
terrorist groups.
    So when you are doing these background checks, these groups 
aren't popping up, it is not going up there. What are we 
looking for, then, to kind of classify them if they might be 
part of these groups?
    Ms. Miller. That is an excellent question, sir. Thank you.
    I mentioned the multilayered approach that we take, and 
that really does start with the recruiter who does this in-
depth interview with the applicant. And they ask about a number 
of qualifying factors, the traditional ones of citizenship and 
age, level of education, any past criminal records, medical 
history, drug use.
    And then they also ask about tattoos. And tattoos, as we 
have learned, is one of the best ways to help identify whether 
an individual has had a current or past history of engagement 
with any sort of extremist or gang activity. And our colleagues 
in the first panel mentioned the importance and the value of 
knowing those tattoos.
    For many years, the recruiters in our military entrance 
processing stations had multiple, you know, files, large 
binders, with copies and images of tattoos to try to help 
educate them and help identify tattoos. What we have learned is 
that the landscape of tattoos evolves so rapidly, and it is 
very difficult to maintain currency on those, sort of, static 
resources and references.
    And so we agree with our colleagues in the first panel that 
having access to timely information about tattoos and branding 
is very important. And so one of the requirements that we now 
include is, for any sort of concerning or questionable branding 
or tattoo, there is a requirement to take images, as 
appropriate, of those markings and to actually engage local law 
enforcement and to engage the FBI and to actually ascertain 
more information about those markings. And that is a very 
important step of part of what we do.
    And then, also, the recruiters do a lot of work in terms of 
working with family members. They spend an incredible amount of 
time in their community, and so they get to know what are some 
of the prevalent concerning indicators in those communities. 
They talk to school counselors, they talk to school resource 
officers, they talk to local police. And so they will get a 
sense of who this individual is and the company he or she may 
keep.
    And so that is some of the preliminary work that we do 
before we hand it over to more formal channels and more formal 
investigative channels.
    Mr. Cisneros. Yeah.
    Now, Mr. Reid, you said, you know, the investigative 
officers, they are enforcing U.S. Code, right? But the 
military, the Department of Defense has policy. We have a zero-
tolerance policy when it comes to drugs. Why don't we have a 
zero-tolerance policy when it comes to White supremacy?
    You know, Mr. Grabosky had stated that being a member of 
this organization isn't illegal, or it is not against the 
policy, but only if you are active. You know, would we let a 
member of al-Qaida or a member of ISIS into our military if 
they said, ``Well, I am a member, but I am not active''? Why 
aren't we doing this the same for these White supremacist 
groups?
    Mr. Reid. Sir, I believe we do have a policy, in that, 
again, your eligibility for service is hinged to the Federal 
adjudicative guidelines, and one of those guidelines speaks to 
engaging in behavior that denies others their basic 
constitutional rights.
    So any involvement with a group that espoused those views, 
and membership and involvement with that group, although it may 
be below the level of a criminal code violation, would be a 
disqualifier for a decision by an adjudicator on the continued 
eligibility of that individual.
    Mr. Cisneros. So you are saying, if somebody is a member of 
that group, they are not eligible to--one of these White 
supremacist groups--they are not eligible to serve in the U.S. 
military?
    Mr. Reid. They could be disqualified based on their 
participation. The front-end questionnaire asks questions, are 
you a member of any of those groups? If they withhold 
information, they falsified the form, which, by the way, is a 
criminal Federal offense also, but it also, again, goes to 
loyalty and honesty, which are adjudicative guidelines.
    So there are 13 guidelines, and they crisscross in many 
instances, where, as I mentioned earlier, personal conduct, 
criminal conduct, allegiance are the main categories. There are 
other categories, terrorism categories. Alignment with any of 
those activities would be an element of an investigative file.
    And keep this in mind--I know you are running out of time. 
We are going to this continuous evaluation. We are already 
doing it. So we don't wait until the next reinvestigation 
anymore like we used to. These are occurring every day.
    We have public records checks, other checks, where, if this 
comes to light--insider threats, someone mentions anything to 
an insider-threat officer, chain of command, it is going to go 
to a security manager, it is going to go to an insider-threat 
hub, and they are going to pull the string on that and find out 
what is going on, and if it is there, they are going to take 
action.
    Mr. Cisneros. All right.
    Well, Madam Chairman, I just want to say this one last 
thing, and it really is: This is a bigger problem in our 
country, and it is something that we need to work on. It is not 
only a military problem; it is something that we need--these 
groups, they need to be classified as domestic terrorist 
groups, as gangs. And we need to recognize what they are; these 
international organizations are terrorist organizations.
    And, with that, I yield back.
    Ms. Speier. Thank you, Mr. Cisneros.
    Mr. Reid, Ms. Miller--and, Ms. Miller, we have worked 
together on a number of issues. I have a high regard for you. 
But I am really flummoxed by what we have heard tonight--
today--soon to be tonight.
    In this policy, it says that any of these active 
participation in gangs or organizations is prohibited. So if it 
is prohibited and we have an Air Force service member who is 
actively fundraising for this despicable organization, why is 
he still in the military?
    Ms. Miller. Ma'am, we will have to refer you to the Air 
Force to gain more details on that specific case.
    To your point, yes, the policy does say it prohibits active 
participation, which includes fundraising, demonstrating, 
rallying, recruiting, training, organizing, leading members, 
distributing material, wearing gang colors and, to your point 
earlier, tattoos or other brandings.
    And so, therefore, those are the type of indicators that 
need to be evaluated when determining whether there has been a 
violation of this policy, which then could therefore lead to, 
you know, certainly administrative separation and other actions 
against the individual.
    As it pertains to that case and as Mr. Reid indicated 
earlier, the services often work very deliberately through that 
process. And there is an element of due process consideration, 
and so sometimes that does take time. But we will have to refer 
you to the Air Force to garner specific details about that 
individual case.
    Ms. Speier. But here is the problem. If all of these cases 
that you work very hard to investigate are then referred to the 
command and there is total discretion within the command, there 
is not equal due process, there is not equal parsing out of 
punishment, if we don't have a standard.
    And, you know, if I am a member of the Sierra Club, I 
espouse all of their values. If I am a member of an 
organization that is specifically interested in doing harm to 
the United States, I believe and will be supportive of that.
    So I have a real problem with the vagueness of these 
policies and the distinction between active participation and 
membership. And I think these policies have to be updated. They 
are woefully inadequate for what we know today is a very 
serious domestic terrorism problem. So we are going to 
hopefully be working with you to try and develop, you know, 
clearer outlines.
    One last question I have, and then I will turn it over to 
Mr. Kelly. What training is being provided to commanders now 
about White supremacism specifically, the accelerationist 
community, and a number of these organizations that we 
referenced here today?
    Ms. Miller. Ma'am, my capacity here today is accessions, as 
I mentioned, and so I am not an expert, per se, on the level of 
training that commanding officers may receive.
    But the policy requires training. It requires training at 
the entry-level training point; it requires routine and regular 
training and certainly all the way up to the commanding officer 
level. So we will have to take that question back and make sure 
that the committee gets a fulsome answer from those who are 
responsible for that.
    [The information referred to can be found in the Appendix 
on page 151.]
    Ms. Miller. One point I think that is very helpful is that 
each command has an equal opportunity advisor. And equal 
opportunity advisors, I think, are a very important asset in 
that command triad. And they do receive training specifically 
on extremism and White supremacy, actually, largely pulling 
from information from the ADL and the Southern Poverty Law 
Center, to help educate them to look for concerning signs and 
indicators within their command and to advise their commanding 
officers on what to recognize. And so I do think that that is a 
valuable asset.
    Ms. Speier. And I will just finally say, I would like to 
associate myself with Mrs. Davis' comments. Any job application 
today requires that the review that takes place looks at social 
media. So our reluctance or timidity in wanting to do that at 
the front end in accession makes no sense. I mean, this is the 
21st century, and that is how people communicate. And if we 
can't look at that, then we are not necessarily doing this 
fulsome review as we have individuals become members of the 
military.
    I will now turn it over to Mr. Kelly.
    Mr. Kelly. I would just ask that you guys please look at 
requiring that when you do administrative action or UCMJ, okay, 
when these guys do the hard work, that you make them report 
that to DOD so that we can collect that data. Because without 
that, we don't know what is happening below.
    So if you would require that they--number one is, people 
are usually more accountable on things that they have to 
report. We know that from almost anything. So I think that is 
an easy fix.
    Now I am going to ask you guys, what can Chairwoman Speier 
and myself--what authorities do you need to better do your job 
to not just--and White supremacy is what we are talking about 
today, but whether it is other organizations, it doesn't matter 
to me; they are all bad to the order and discipline of the 
military.
    So what authorities do you need from us to make your job 
easier? What can we do to give you authorities?
    Ms. Miller. I know Mr. Reid already answered that similar 
question. I will echo his sentiments, that I believe the 
Department has the authorities that we need to work after this 
issue.
    Certainly, the continued evolution and development of 
additional tools and capabilities, particularly as it comes to 
social media scraping, I believe, will be very informative, 
especially during the accession process. But there are some 
initial challenges and hurdles that we need to work through 
before we can implement that on a large scale.
    Mr. Kelly. Now the really hard question. For you two guys, 
and then we will--and I am not ignoring you all, but these are 
the decision makers, or at least you influence the decision 
makers. I would ask, what is one thing that you can do with 
your current authorities that immediately, incrementally, make 
a difference in either identifying members of organizations 
that are adverse--White supremacists, any other group that are 
adverse to the interests of the United States Government, and 
then, also, or that punishes them or makes a punishment even, 
someone who is in an organization like that?
    Let's be for real. If they are a member, it doesn't matter 
whether you can catch them being active; they are not passive. 
They didn't join it to be passive.
    And so, if there is anything, what can you do that you can 
do or influence your superior to do to make that immediately 
either to keep them out or get them out?
    Mr. Reid. I apologize, sir. I didn't exactly hear the 
question you wanted me to answer.
    Mr. Kelly. Under the authorities--I asked what authorities 
you need from us, and you said none. So, in your current job, 
what can you do, what one simple thing can you do, to make it 
easier either to keep people out, identify them, or get them 
out of the DOD?
    Mr. Reid. I think you hit on a very good one, and that is, 
if we could find a way to extend our reach--of the things we do 
in background investigations, as I indicated, we cannot apply 
those at the Federal level until an individual has been placed 
on contract and signs a consent form. So that space that exists 
prior--left of that is a difficult space for us to operate in.
    Among other things, especially when you talk about social 
media, any time I am going to go check any of that, I am going 
to get other U.S. person information. And we run into a lot of 
obstacles with privacy concerns, civil liberty concerns, and EO 
[Executive Order] 12333 concerns about third-party information. 
Any American that is chatting with other people is probably 
chatting with other Americans that are not part of my interest 
sphere.
    So it is a complex thing. If you could help us figure out--
--
    Mr. Kelly. I get all that, but you would be surprised what 
you can just find out with a simple Google of an individual----
    Mr. Reid. Yes, sir. But we----
    Mr. Kelly [continuing]. Which is public information that 
they put out. But thank you.
    And real quickly, if you can answer, please, Ms. Miller, 
tell us what we can do to get you the authorities.
    Ms. Miller. One of the things that we are working on right 
now is to expand our scope of engagement with the FBI, 
specifically the Domestic Terrorism Task Force and the criminal 
gang files.
    We do a level of work with local law enforcement in the 
local gang activity. The information that is available at the 
FBI is limited to law enforcement, and so that is not 
necessarily information that we can provide to 20,000 
recruiters across the country.
    And so we have a working group right now to determine how 
best to share that information and at what level so that we can 
continue to update them real-time on emerging patterns and 
tattoos and markings. And so that is work that we are doing 
right now and, I think, will be very helpful.
    Mr. Kelly. And I want to end with, guys, you are setting 
the standard for America, and thank you. You are doing an 
outstanding job. So I don't want--but I still want to get 
better. A guy used to say: Good, better, best; good get better, 
and better get best. I believe in that in everything we do.
    And please look at the climate survey. I don't think you 
guys need our authority to ask the right questions to identify 
issues. And so I would just ask, either influence or do that.
    And, with that, I yield back, Chairwoman.
    Ms. Speier. All right.
    Lots of food for thought here. We look forward to working 
with you. This is a serious issue. I think you recognize that 
we are taking it very seriously.
    So we thank you for your contributions today and your work 
that you do every day.
    And, with that, we stand adjourned.
    [Whereupon, at 4:51 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           February 11, 2020

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 11, 2020

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
 
   
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 11, 2020

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER

    Dr. Beirich. The only data I have on this front is what has been 
reported in the press. In my testimony, the following are active duty 
soldiers who were found to be connected to extremist ideas/groups:
    <bullet>  Coast Guard Lieutenant Christopher Hasson, arrested Feb. 
2019. A former active-duty Marine and member of the Army Guard, Hasson 
was found to be plotting a mass murder of elected officials of the 
Democratic party and media figures.\1\ After seizing his computer and 
other electronic devices, investigators found evidence that Hasson was 
a long-time white supremacist who held violently racist views even 
before his first enlistment in the military. He was sentenced in 2020 
to 13 years in prison.
---------------------------------------------------------------------------
    \1\ https://www.nbcnews.com/think/opinion/inside-u-s-military-s-
battle-white-supremacy-far-right-ncna1010221
---------------------------------------------------------------------------
    <bullet>  In April 2019, Master Sergeant Cory Reeves was identified 
as a member of the white supremacist group Identity Evropa. He was only 
demoted one rank after an initial investigation. In December, 
proceedings into his activities opened with the possibility of 
discharge.\2\ He remained employed by the Air Force until after this 
hearing was held.
---------------------------------------------------------------------------
    \2\ https://www.denverpost.com/2019/12/17/air-force-identity-
evropa-cory-re eves/
---------------------------------------------------------------------------
    <bullet>  In September 2019, the FBI arrested Jarrett William 
Smith, a soldier stationed at Fort Riley, Kansas, and charged him with 
providing expertise to extremists that could lead to the creation of 
explosives and weapons of mass destruction.\3\ He was interacting with 
a member of a neo-fascist Ukrainian group, the Right Sector, and was 
interested in fighting in Ukraine. The FBI said Smith discussed in an 
online chat a plan to conduct an attack within the United States. Smith 
was reportedly searching for more ``radicals'' like himself and 
discussed killing members of an anti-fascist network as well as 
destroying cell towers or a local news station. Later he suggested a 
major American news network as a target of a vehicle bomb.
---------------------------------------------------------------------------
    \3\ https://www.nytimes.com/2019/09/23/us/us-army-soldier-arrested-
Jarrett-William-Smith.html
---------------------------------------------------------------------------
    <bullet>  In December 2019, two men, Brandon Trent East and Dalton 
Woodward, were kicked out of the Georgia National Guard after they were 
reported to be leaders of the racist pagan group, Ravensblood Kindred, 
part of the larger white supremacist Asatru Folk Assembly.\4\ According 
to press reports, the men had attended a speaking event by white 
nationalist Richard Spencer in 2017, and one of them was on active duty 
in Afghanistan when his ties to white supremacy were disclosed.
---------------------------------------------------------------------------
    \4\ https://www.nbcnews.com/news/us-news/2-men-kicked-out-national-
guard-over-alleged-white-supremacist-n1107591
---------------------------------------------------------------------------
    <bullet>  Also in 2019, the Huffington Post exposed seven members 
of the U.S. military actively posting on a Discord chatroom as part of 
the white nationalist organization Identity Evropa.\5\ They included 
two Marines, two Army ROTC cadets, an Army physician, a member of the 
Texas National Guard and one member of the Air Force. Their names are: 
Stephen T. Farrea. Jason Laguardia, Jay C. Harrison, Christopher 
Cummins, Joseph Kane, Dannion A. Phillips and Christopher Hodgman.
---------------------------------------------------------------------------
    \5\ https://www.huffpost.com/entry/white-nationalists-military-
identity-evropa_n_5c8ab70ae4b0
d7f6b0f1094b
---------------------------------------------------------------------------
    <bullet>  In 2018, Marine Lance Corporal Vasillios G. Pistolis, was 
expelled from the Marine Corps for his ties to the neo-Nazi Atomwaffen 
Division (AWD). He was removed after participating in the 
Charlottesville riots in 2017, where he was engaged in violent 
assaults. Pistolis later bragged about his involvement online with 
other members of AWD.\6\
---------------------------------------------------------------------------
    \6\ https://www.marinecorpstimes.com/news/your-marine-corps/2018/
08/01/marine-with-alleged-neo-nazi-connections-booted-from-the-marine-
corps/
---------------------------------------------------------------------------
    <bullet>  In 2017, Brandon Russell, Pistolis's roommate, was 
arrested after one of their roommates, Devon Arthurs, killed two of 
their other roommates in a Tampa apartment. Investigators on the scene 
discovered a cache of weapons, detonators and volatile chemical 
compounds, including a cooler full of HMTD, a powerful explosive often 
used by bombmakers, and ammonium nitrate, the substance used by Timothy 
McVeigh in the Oklahoma City attack. Russell was also in possession of 
two radioactive isotopes, americium and thorium. At the time of his 
arrest, Russell had been serving in the 53rd Brigade Special Troops 
Battalion of Florida's Army National Guard.
    <bullet>  In 2013, John Charles Stortstrom, a mechanical engineer 
who worked for the Army at its Edgewood Chemical Biological Center 
(ECBC) in Maryland, was suspended after published reports disclosed 
that he was among 150 white nationalists who attended a conference of 
the white nationalist American Renaissance, a race science outfit. 
American Renaissance included a photo on its website of Stortstrom with 
the caption, ``Engineer. Republican. Racist. Military bomb maker.'' \7\
---------------------------------------------------------------------------
    \7\ https://www.splcenter.org/hatewatch/2013/07/08/after-hatewatch-
story-maryland-military-engineer-suspended
---------------------------------------------------------------------------
    <bullet>  In 2012, Nathan Wooten, a member of the Missouri National 
Guard, was arrested for running and supplying weapons to a neo-Nazi 
paramilitary training camp in Florida.\8\
---------------------------------------------------------------------------
    \8\ https://theweek.com/articles/833960/american-militarys-
extremist-problem
---------------------------------------------------------------------------
    <bullet>  Also in 2012, two other soldiers, U.S. Army Sgt. Anthony 
Peden and Pvt. Isaac Aguigui, were arrested after murdering a former 
soldier and his girlfriend in an attempt to cover up their 
assassination plot against then-President Barack Obama.\9\
---------------------------------------------------------------------------
    \9\ https://psmag.com/social-justice/does-the-american-military-
have-a-problem-with-far-right-extremism
---------------------------------------------------------------------------
    <bullet>  In 2009, Marine Lance Corporal Kody Brittingham, 
stationed at Camp Lejuene, N.C., was arrested on an armed robbery 
charge. A search of his barracks turned up a journal containing white 
supremacist material and a plan to kill Obama.\10\
---------------------------------------------------------------------------
    \10\ https://www.journalnow.com/news/local/former-lejeune-marine-
charged-with-threatening-obama/article_0c645db5-0529-53ad-aeee-
e1ed3f7cf96b.html
---------------------------------------------------------------------------
    There are additional sources of information on active duty troops 
that could be considered. In 2009, the Southern Poverty Law Center 
(SPLC) reported on leaked private emails of the neo-Nazi National 
Socialist Movement (NSM). The emails showed that several people who 
identified themselves as active military personnel contacted NSM over 
the prior two years to express interest in the organization, including 
at least one soldier who subsequently joined.\11\ In 2008, the SPLC 
issued a report revealing that 46 members of the neo-Nazi web forum New 
Saxon had identified themselves as active-duty military personnel. It 
quoted a racist skinhead who wrote that he had joined the Army and 
specifically requested an assignment where he would be able to learn 
how to make an explosive device.\12\ And in 2006, an SPLC report showed 
that a number of military personnel had joined racist and neo-Nazi 
groups such as the Fourth Reich, Aryan Nation, National Alliance, 
National Socialist Movement, and others.\13\
---------------------------------------------------------------------------
    \11\ https://www.splcenter.org/hatewatch/2009/09/03/leaked-neo-
nazi-e-mails-show-contacts-military-personnel
    \12\ https://www.splcenter.org/fighting-hate/intelligence-report/
2008/evidence-shows-racist-skinheads-enlisting-military
    \13\ https://www.splcenter.org/fighting-hate/intelligence-report/
2006/several-high-profile-racist-extremists-serve-us-military
---------------------------------------------------------------------------
    I would suggest that it would be helpful to look at all military 
reports on this issue. For example, in 2003, the U.S. Army Criminal 
Investigation Division advised the FBI of six active-duty soldiers at 
Fort Riley, Texas, who were affiliated with the Aryan Nations. One was 
the neo-Nazi group's point of contact in Kansas and sought to recruit 
members from within the military.\14\ There may be other such internal 
reports.
---------------------------------------------------------------------------
    \14\ https://www.splcenter.org/fighting-hate/intelligence-report/
2008/fbi-reports-extremists-military
---------------------------------------------------------------------------
    I also mention several other individuals who are former military. 
These include Timothy McVeigh, Eric Rudolph, Wade Michael Page, all of 
whom committed acts of domestic terrorism. There are far more examples 
such as these. In 2020, two members of the neo-Nazi The Base were 
arrested and had previous military training: Brian Mark Lemley was a 
cavalry scout in the Army and Patrik Jordan Mathews previously served 
as a combat engineer in the Canadian Army Reserve, indicating that the 
reach of white nationalism is a problem for foreign military services 
as well. According to New America, 21 military veterans were identified 
as having committed or attempted an act of violence as a right-wing 
extremist between 2001 and 2013.\15\   [See page 10.]
---------------------------------------------------------------------------
    \15\ https://psmag.com/social-justice/does-the-american-military-
have-a-problem-with-far-right-extremism
---------------------------------------------------------------------------
    Ms. Miller. Training on supremacism is provided to incoming 
commanders and senior enlisted personnel during pre-command/senior 
leader courses. Military Department and DOD policy on extremism, 
including white supremacism are reinforced to commanders. Additionally, 
commanders are informed of the options within their authority, and the 
potential impact of extremism on the good order and discipline of their 
command. The training provided to commanders supplements training 
provided throughout their careers, as also required by DODI 1325.06, 
during their pre-commissioning training, throughout their professional 
military education, as well as other training such as Equal Opportunity 
and Threat Awareness and Reporting.   [See page 41.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 11, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. As you mentioned in your testimony, the military has 
faced a white supremacist threat before, and our country is currently 
dealing with an international terror threat that manifests through 
radicalized lone actors. We don't have to reinvent the wheel to deal 
with this threat. What lessons from these other fights are relevant 
here? And how should we apply them?
    Dr. Beirich. The main lesson here is the need to tighten up 
regulations as additional problems are presented to the military. Each 
time the white supremacist threat has presented itself, the military 
has taken measures to keep hate groups and their members out. This 
started in 1985 with Defense Secretary Caspar Weinberger and his 
banning of card-carrying hate group members from the Armed Forces. 
After Timothy McVeigh's bombing a set of more stringent regulations was 
again put in force. Again, in 2009, after it was disclosed that many 
soldiers were posting hate on social media, the regulations were 
tightened.
    Today, the areas where changes need to be made are on screening 
incoming recruits and improving the enforcement techniques used to root 
out extremists from the military. A tattoo database is urgently needed 
as are mandatory examinations into hate on social media accounts run by 
potential recruits.
    It is clear that the problem today may not be regulations banning 
extremists from the ranks, but rather their enforcement. During the 
testimony given after I testified, it was clear that members of the 
investigative services for the different military branches were 
applying different standards. In particular, the Air Force 
representative said ``mere membership'' in an extremist group did not 
disqualify someone from the ranks. But the current regulations do ban 
such membership.
    My strongest suggestion is that a hard look at the investigative 
services be undertaken to make sure the same standards against racists 
in the ranks are applied across the board. There may be a need for 
training/retraining on this point for members of the investigative 
services and all of those in command. Troops should also be trained on 
these regulations.
    Also, it may be a good time to consolidate all the regulations 
relating to this matter in one new set of principles. All staff could 
then be retrained to follow those new regulations. It does not appear 
the regulations are wanting, but rather their application is. But that 
is something that needs to be substantiated through a serious 
investigation of this matter. In the end, all hate group members and 
anyone expressing hate ideas needs to be identified. And they should 
have no place in the military. For more garden variety racist ideas 
expressed by troops, there must be intervention of some sort to show 
troops why such ideas are wrongheaded and hurtful to morale, troop 
cohesion, etc. and not compatible with military service. And, most 
importantly, decisions on these matters must be taken out of the hands 
of unit commanders. It should be mandatory that any allegations of such 
matters are reported up the chain of command and handled at a different 
level than the unit. This will allow for more coherent and standardized 
decisions in these matters.
    Ms. Speier. As you mentioned in your testimony, the military has 
faced a white supremacist threat before, and our country is currently 
dealing with an international terror threat that manifests through 
radicalized lone actors. We don't have to reinvent the wheel to deal 
with this threat. What lessons from these other fights are relevant 
here? And how should we apply them?
    Ms.  Brooks. We must move past a ``zero tolerance'' response to the 
presence of white supremacism in the military. In both the military and 
civilian worlds, we need to invest in programs that steer individuals 
away from extremism and deradicalize those who have adopted extremist 
beliefs or joined hate groups. We must prioritize research that builds 
and tests ``off-ramping'' programs--already successfully in use in 
Europe--in the United States. And we must prioritize this work in the 
active-duty and veteran community. In Europe, social programs--such as 
the Aarhaus model--have been developed that provide evidence-based 
indications of positive models for dealing with the complexities of 
``off-ramping'' civilians who have become radicalized. These programs 
are community-minded and focus on breaking down barriers and promoting 
healthy interactions with civil society. They prioritize counseling and 
build resilience to extremism that is more lasting than punitive 
responses. Although individuals must be held accountable for their 
actions and allegiances, further stigmatization and alienation of 
veterans hinders their recovery. For example, as numerous scientific 
studies and reports have underscored, some veterans feel that care and 
support around the issue of post-traumatic stress diagnoses paints the 
entire military and veteran communities as broken, struggling and in 
need of special care.
    Extremism in the military is a complex, human problem that has been 
addressed time-and-again over the past four decades. It costs human 
lives. We must first study these complexities before we can understand 
them and work to diminish the presence of white supremacists in the 
ranks of our armed forces. The following is a list of compounding 
recommendations for addressing the complexities of this problem:
    1. While it is imperative that the threat of extremism in the 
military is addressed, public officials and military commanders must 
understand that remedial action may trigger further radicalization and 
could help turn a radicalizing individual toward violent extremism. 
Instead of a one-size-fits-all approach, we believe in a multi-tiered 
approach centered on prevention and early intervention based on studies 
that highlight the individual nature of radicalization. When necessary, 
we recommend evidence-based deradicalization programs.
    2. Experts in this field will need access to the relevant corridors 
of the military to design credible prevention and intervention programs 
that address the problem of extremism within the Armed Forces. Public 
health service members in the military (such as psychologists, 
psychiatrists, military social workers) will be able to provide 
critical input that ensures these programs take into consideration an 
awareness of military culture.
    3. Establish a commission made up of experts in the fields of 
prevention and intervention in radicalization, deradicalization and de-
escalation (``off-ramping''), and identify evidenced-based best 
practices and programming across all branches of the military for 
veterans reentering civilian society and corresponding resources 
available through VA services, clinics and hospitals.
    4. Use the recommendations of the commission to establish a tiered 
process to address radicalization that begins with counseling but leads 
to discharge only as a final consequence. These programs must be 
rigorously evaluated.
    5. Use the recommendations of the commission to create evidenced 
informed trainings intended to inoculate against radicalization at 
entry, throughout an individual's military career, and reentry into 
civilian life. Train recruiters, officers (commissioned and 
noncommissioned), and investigators on best practices recommended by 
the commission.
    6. Require an annual report from military leadership that includes 
an audit of all investigations and prevention measures taken regarding 
white supremacist activity within the ranks of the military. These 
reports should, to the largest degree possible, be made public so that 
it can inform the military's response to this problem going forward.
    Ms. Speier. As I relayed in my opening statement, Director Wray has 
indicated that the FBI has elevated the white supremacist terror threat 
to the same level as the international terror threat. Are the military 
criminal investigative organizations, or MCIOs, also treating those 
threats with equal urgency and aligning resources appropriately? What 
steps have you taken to ensure that commanders understand the gravity 
of this threat? Director Wray also mentioned that he's stood up hate 
crime-domestic terror fusion cells, are there MCIO representatives 
present too?
    Mr. Ethridge. The Army Criminal Investigation Command (CID) greatly 
values the terrorism investigation expertise and leadership of the FBI. 
In 2019, the FBI welcomed CID to expand our partnership, traditionally 
centered on the National Joint Terrorism Task Force (NJTTF) and the 
international terrorism threat, to focus on the Racially Motivated 
Violent Extremist threat. CID added agent and analyst representation in 
the FBI's Domestic Terrorism Operations Section, Counterterrorism 
Division, in addition to the Army personnel assigned to the NJTTF and 
the installation-level relationships maintained with regional JTTFs. 
The FBI partnership ensures timely notification of Army personnel 
suspected of crimes related to extremist activity. Additionally, the 
CID provides the FBI information on the training and performance 
history of former Army personnel suspected of criminal activity. 
Commanders are responsible for maintaining good order and discipline in 
their units. To assist, CID notifies Commanders when there are 
indications of extremist activity present. Over the past year, CID has 
increased collection efforts, informed HQDA of our observations, 
participated in the review and changes to Army policy, expanded our 
relationship with law enforcement partners and made notifications to 
Commanders. Additionally, CID has formulated a request to the Army 
Inspector General to add unit implementation of extremist activity 
policy (Army Regulation 600-20) as a focus area for the next inspection 
cycle. The Army is postured to identify extremist activity in the ranks 
and has both the policy and leadership tools to prevent emergence as a 
pervasive issue.
    Ms. Speier. As I relayed in my opening statement, Director Wray has 
indicated that the FBI has elevated the white supremacist terror threat 
to the same level as the international terror threat. Are the military 
criminal investigative organizations, or MCIOs, also treating those 
threats with equal urgency and aligning resources appropriately? What 
steps have you taken to ensure that commanders understand the gravity 
of this threat? Director Wray also mentioned that he's stood up hate 
crime-domestic terror fusion cells, are there MCIO representatives 
present too?
    Mr. McMahon. NCIS is confronting racially motivated violent 
extremism (RMVE) threats with the same urgency as the FBI. Responding 
to an increase in NCIS cases and referrals from the FBI, NCIS 
established the unique case category Domestic Terrorism for 
investigative and operational reporting purposes. This allows NCIS to 
more accurately reflect the scope of the incidents and to align 
investigative resources against this emerging challenge. To ensure 
commanders understand the gravity of the RMVE threat, NCIS immediately 
briefs commands when there are indications of service member 
affiliation with RMVE groups under their command--regardless of 
evidence of criminal activity. Briefing programs have been updated to 
include information on domestic extremism. The command briefings not 
only educate commanders, but also serve as another opportunity to 
advise all service members of prohibited activities. Recognizing this 
problem cannot be addressed solely through criminal investigations, 
NCIS also convened a working group of Department of Navy commands to 
coordinate resources, identify existing policies, and determine areas 
of focus in an effort to raise the visibility of this issue as priority 
with commanders. NCIS maintains a physical presence at FBI Joint 
Terrorism Task Forces within all major fleet concentration areas. This 
presence allows for direct NCIS visibility on domestic terrorism issues 
that could impact the Department of Navy. Additionally, NCIS maintains 
a senior level liaison officer at the National Joint Terrorism Task 
Force with immediate access to all relevant information and FBI 
Sections addressing this threat. This includes daily interaction with 
the FBI Domestic Terrorism Operations Section. NCIS has conducted 
multiple joint investigations and operations with the FBI targeting 
RMVE activity in the military.
    Ms. Speier. As I relayed in my opening statement, Director Wray has 
indicated that the FBI has elevated the white supremacist terror threat 
to the same level as the international terror threat. Are the military 
criminal investigative organizations, or MCIOs, also treating those 
threats with equal urgency and aligning resources appropriately? What 
steps have you taken to ensure that commanders understand the gravity 
of this threat? Director Wray also mentioned that he's stood up hate 
crime-domestic terror fusion cells, are there MCIO representatives 
present too?
    Mr. Grabosky. OSI is a federal law enforcement agency with 
responsibility for conducting criminal investigations, 
counterintelligence and specialized investigative activities, and 
integrated force protection for the United States Air and Space Forces. 
As such, all threats potentially impacting our forces are thoroughly 
investigated and taken seriously. OSI maintains a full-time presence on 
the local and national Joint Terrorist Task Forces (JTTFs) that monitor 
and provide Domestic Terrorism (DT) information to OSI HQ and field 
units for action. Additionally, through its own Insider Threat (InT) 
program, OSI monitors key data streams to provide early indicators of 
potential threat activity. These data streams, fused with the 
information provided by the Air Force InT Hub, provide information 
ranging from local arrest information to background data used for 
security clearance adjudication. This information, as well as 
information provided through local and federal law enforcement 
partnerships, are the key elements driving OSI's DT efforts. Currently, 
OSI does not have full-time representation at the hate-crime domestic 
terrorism fusion cell at FBI HQ. However, OSI is closely aligned with 
our FBI counterparts with 21 agents assigned to full-time JTTF 
locations, one agent and analyst at the National JTTF, and two liaison 
officers assigned to FBI HQ. OSI also has 66 special agents who are 
part of FBI Counterintelligence Task Forces (CITF) at 55 FBI offices 
around the country providing OSI access to FBI information systems. 
Finally, OSI agents and analysts closely work with the Domestic 
Terrorism Fusion Cell via the domestic terrorism operations section of 
the FBI counterterrorism division and are well postured to support 
investigations and operations responding to racially motivated violent 
extremist threats. OSI informs and educates commanders of all threats 
that may impact the force, to include threats from DT. The primary 
method of keeping commanders apprised of the seriousness of violent 
extremist threats, both domestic and foreign, is through routine threat 
information sharing with local commanders and senior Air Force leaders. 
OSI is a primary member of the commander's Threat Working Group that 
examines all source information and responds to threats to the local 
installation, mission, and personnel. Additionally, each OSI field 
operating location produces two annual reports that contain specific 
threat information tailored to their Area of Responsibility (AOR): a 
Criminal Threat Assessment (CTA) and a classified Local Threat 
Assessment (LTA). The LTA deals primarily with foreign terrorism and 
counterintelligence threats, while the CTA deals primarily with 
criminal threats and domestic terrorism. OSI thanks the Committee for 
the opportunity to provide additional insight into some of the 
exceptional work our agents do every day to protect Department of the 
Air Force personnel and resources, and we look forward to provide 
additional information as needed.

                                  <all>
</pre></body></html>
